<html>
<title> - THE CURRENT SITUATION IN SUDAN AND THE PROSPECTS FOR PEACE</title>
<body><pre>[Senate Hearing 108-866]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-866
 
       THE CURRENT SITUATION IN SUDAN AND THE PROSPECTS FOR PEACE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SEPTEMBER 9, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
97-822                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    41

Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    44
    Trip Report of Senator Brownback and Representative Wolf, 
      Darfur, Western Sudan, June 27-29, 2004....................    61

Corzine, Hon. Jon S., U.S. Senator from New Jersey, prepared 
  statement......................................................    28

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Powell, Hon. Colin L., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     3
    Prepared statement...........................................    10
    Documenting Atrocities in Darfur (A Report Prepared by the 
      U.S. Department of State)..................................    14
    Responses to additional questions for the record from Senator 
      Biden......................................................    67
    Responses to additional questions for the record from Senator 
      Feingold...................................................    69
    Responses to additional questions for the record from Senator 
      Corzine....................................................    70

                                 (iii)

  


       THE CURRENT SITUATION IN SUDAN AND THE PROSPECTS FOR PEACE

                              ----------                              


                      THURSDAY, SEPTEMBER 9, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in SD-
G50, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Brownback, 
Alexander, Coleman, Sununu, Biden, Sarbanes, Dodd, Feingold, 
Boxer, Bill Nelson, and Corzine.
    Also present: Senator Frist.

    OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    The Committee on Foreign Relations convenes for the first 
time since the conclusion of a long, but busy, recess to 
consider the tragic events in Sudan. We're especially pleased 
to welcome Secretary of State Colin Powell, who has recently 
visited Darfur and Khartoum, and who has taken a direct 
interest in this humanitarian catastrophe.
    The immediacy of the Darfur emergency is paramount, and the 
lives of hundreds of thousands of people will be at risk during 
the coming months. Time and again, groups of Sudanese have 
suffered a similar violent refrain. Government planes bomb 
villages in advance of attacks by proxy militia, who destroy 
homes, burn crops, and steal livestock before driving innocent 
villagers into the wilderness and beyond assistance. This has 
happened in villages across Sudan during the long civil war, 
and is now occurring in Darfur.
    Today, the 1.4 million Darfurians on the run or huddling in 
barren camps are vulnerable to murder, rape, starvation, and 
disease. This is the result of a calculated strategy by the 
government in Khartoum and their janjaweed proxies who decimate 
the civilian supporters of their political opponents.
    The United States is committed to helping resolve the civil 
war in Sudan that has already claimed the lives of two million 
people. The fruits of that labor appear to be within reach as 
the North-South peace talks resulted in framework peace 
agreements in June. But a sustainable peace in Sudan requires a 
reversal of the continuing policies of the Government of Sudan 
that constitute war crimes and crimes against humanity. The 
janjaweed militias were trained and armed by the government, 
and must be demobilized now.
    In addition, United Nations Security Council Resolution 
1556 demands that the Sudanese Government bring to justice 
those responsible for the atrocities in the Darfur region. 
Sudanese must see justice imposed if the current culture of 
impunity and intimidation is to be overcome.
    During a Foreign Relations Committee hearing on the 
intersection of hunger and AIDS held on May 11 of this year, 
James T. Morris, the director of the World Food Program, 
described the acute fear and desperation of the people he 
encountered while traveling in Darfur. Crowded refugee camps 
have little access to life-sustaining food, medicine, shelter, 
and clean water. The inevitable outbreaks of cholera and other 
diseases threaten to kill thousands of people a day. If lives 
are to be saved and hope is to replace fear, the international 
community must coalesce and respond to this humanitarian 
catastrophe, and it must do so quickly.
    The lessons of past atrocities, remembered this spring in 
the 10th year observance of the Rwandan genocide, should inform 
and empower our actions. The Sudan crisis is complex, but it 
has not been sudden. It has gradually unfolded, providing ample 
opportunity for humanitarian action by the international 
community.
    Although many nations have responded, the resolve and unity 
of the international community has not been commensurate to the 
horrors of the crisis. Khartoum's status as an oil exporter, a 
major arms importer, and an Islamic government has diminished 
the appetite for decisive action in some foreign capitals. But 
neither economic interest's nor religious identification should 
trump responsible international actions in a case where 
genocidal policies are being conducted.
    Secretary General Kofi Annan issued a warning last spring 
that a United Nations intervention might be necessary. Last 
week, following the expiration of the deadline set by Security 
Council Resolution 1556, he stated that attacks against 
civilians have continued, militias had not been disarmed, and 
no concrete steps had been taken to arrest or even identify 
militia leaders and perpetrators of attacks.
    The threat of sanctions must now be followed by the act of 
sanctioning the Sudanese Government, perhaps by restricting the 
flow of oil that fuels that government with an estimated income 
of $2 billion.
    The African Union has responded to this challenge on its 
continent by deploying a monitor and protection force to police 
the ineffective cease-fire signed in April. The African Union 
convened talks between the parties to the Darfur dispute in 
Abuja last week and called for an expanded force of 3,000 to 
4,000 troops, including major contingents from Rwanda and 
Nigeria. The resistance by the Sudanese Government to this 
expansion is unacceptable.
    The international community should authorize the deployed 
African Union force, insist on its expansion to a size adequate 
to address the needs of a region the size of France, and give 
it a mandate to protect civilians. The Rwandan Government, to 
its credit, has stated that its soldiers will not stand by if 
civilians are attacked. To be successful, this force needs to 
receive the resources and support necessary to operate in some 
of the harshest conditions on Earth.
    Congress has been active with respect to Sudan. On May 6, 
the Senate passed Senate Concurrent Resolution 99, which 
expressed congressional concern over the deteriorating human 
rights and humanitarian situation in Darfur and condemns the 
Sudan Government's actions. On July 22, Congress passed Senate 
Concurrent Resolution 133, which declared the policies of the 
Government of Sudan in the Darfur region to be genocide.
    The Senate Foreign Relations Committee has worked hard on 
bipartisan legislation that is designed to provide significant 
funding to address the humanitarian crisis in Darfur and to 
advance the prospects for a comprehensive peace. Together with 
Senator Biden and other Senators on this committee, I've 
introduced the Comprehensive Peace in Sudan Act of 2004. This 
bill reflects many bipartisan ideas developed by Senator Biden 
as well as other co-sponsors.
    The State Department has been very helpful in the 
committee's deliberations, advising us on how to approach this 
complex problem and on funding needs.
    Secretary Powell, we would greatly appreciate your personal 
assessment today of the current situation and the prospect for 
a coordinated international response to the Darfur crisis, 
especially in light of the Secretary General's report of last 
week. We understand you are prepared to discuss the result of 
the State Department's own investigation of the Darfur crisis, 
which is based on more than 1,000 refugee interviews. Your 
thoughts on the approaching Presidential determination on the 
North-South peace process would also be welcome, as well as any 
recommendations on our legislative efforts.
    Your presence here provides an excellent opportunity to 
expand public understanding of the crisis in Darfur and to 
strengthen the foundations for effective action. We appreciate 
your coming once again. When Senator Biden arrives, I'll 
recognize him for an opening statement. For the moment, the 
floor is yours, and we welcome you.

  STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, U.S. 
                      DEPARTMENT OF STATE

    Secretary Powell. Thank you very much, Mr. Chairman. It's a 
pleasure to be back before the committee as you conduct these 
deliberations on one of the most difficult situations the 
international community is facing, and that's the tragedy in 
Darfur, where, as you noted, so many hundreds of thousands of 
people are at risk, so many hundreds of thousands of people 
have been forced from their homes, from their villages to 
camps, and where there is an absolute need for the 
international community to come together and speak with one 
voice as to how we deal with this situation.
    Mr. Chairman, I do have a prepared statement that I'd like 
to offer for the record, and then I will draw from that in my 
opening remarks.
    The Chairman. It will be published in full and please 
proceed as you wish.
    Secretary Powell. Mr. Chairman, members of the committee, 
let me thank you for this opportunity to testify on the 
situation in Darfur, and let me begin by reviewing a little 
history. The violence in Darfur has complex roots in 
traditional conflicts between Arab nomadic herders and African 
farmers. The violence intensified during 2003 when two groups, 
the Sudan Liberation Movement and the Justice and Equality 
Movement, declared open rebellion against the Government of 
Sudan, because they feared being on the outside of the power- 
and wealth-sharing agreements that were being arranged in the 
North-South negotiations, the Naivasha discussions as we call 
them.
    Khartoum reacted aggressively, intensifying support for 
Arab militias to take on these rebels and support for what are 
known as the janjaweed. The Government of Sudan supported the 
janjaweed directly and indirectly as they carried out a 
scorched earth policy toward the rebels and the African 
civilian population in Darfur.
    Mr. Chairman, the United States exerted strong leadership 
to focus international attention on this unfolding tragedy. We 
first took the issue of Sudan to the United Nations Security 
Council last fall. President Bush was the first head of state 
to condemn publicly the Government of Sudan and to urge the 
international community to intensify efforts to end the 
violence.
    In April of this year, the United States brokered a cease-
fire between the Government of Sudan and the rebels and then 
took the lead to get the African Union to monitor that cease-
fire. As some of you are aware, I traveled to the Sudan in mid-
summer and made a point of visiting Darfur. It was about the 
same time that Congressman Wolf and Senator Brownback were 
there as well as Secretary General Kofi Annan. In fact, the 
Secretary General and I were able to meet in Khartoum to 
exchange our notes and to make sure that we gave a consistent 
message to the Sudanese Government of what was expected of 
them.
    Senator Brownback can back me up when I say that all of us 
saw the suffering that the people of Darfur are having to 
endure. And Senator Corzine was just in Darfur recently. He can 
vouch for the fact that atrocities are still occurring. All of 
us met with people who had been driven from their homes by the 
terrible violence that is occurring in Darfur, indeed many of 
them having seen their homes and all of their worldly 
possessions destroyed or confiscated before their eyes.
    During my visit, humanitarian workers from my own agency, 
USAID, and from other nongovernmental organizations told me how 
they are struggling to bring food, shelter, and medicine to 
those so desperately in need, a population, as you noted, Mr. 
Chairman, of well over a million.
    In my mid-summer meetings with officials of the Government 
of Sudan, we presented them with the stark facts of what we 
knew about what is happening in Darfur, from the destruction of 
villages to the raping and the killing, to the obstacles that 
impeded relief efforts. Secretary General Annan and I obtained 
from the Government of Sudan what they said would be firm 
commitments to take steps and to take steps immediately that 
would remove these obstacles, help bring the violence to an 
end, and do it in a way that we could monitor their 
performance.
    There have been some positive developments since my visit, 
since the visit of Senator Brownback, Congressman Wolf, and the 
Secretary General. The Sudanese have met some of our 
benchmarks, such as improving humanitarian access, engaging in 
political talks with the rebels, and supporting the deployment 
of observers and troops from the African Union to monitor the 
cease-fire between Khartoum and the rebels.
    The AU Ceasefire Commission has also been set up and is 
working to monitor more effectively what is happening in 
Darfur. The general who is in charge of that mission, a 
Nigerian general by the name of General Okonkwo, is somebody 
that we know well. He is the same Nigerian general who went 
into Liberia last year and helped stabilize the situation 
there, a very good officer, a good commander who knows his 
business.
    The AU's mission will help to restore sufficient security 
so that these dislocated, starving, hounded people can at least 
avail themselves of the humanitarian assistance that is 
available. But what is really needed is enough security so that 
they can go home, not be safe in camps. We need security 
throughout the countryside. These people need to go home. We 
are not interested in creating a permanent displaced population 
that survives in camps on the dole of the international 
community.
    And what is really needed to accomplish that is for the 
janjaweed militias to cease and desist their murderous raids 
against these people and for the Government in Khartoum to stop 
being complicit in such raids. Khartoum has made no meaningful 
progress in substantially improving the overall security 
environment by disarming the janjaweed militias or arresting 
its leaders.
    So we are continuing to press the Government of Sudan and 
we continue to monitor them. We continue to make sure that we 
are not just left with promises instead of actual action and 
performance on the ground, because it is absolutely clear that 
as we approach the end of the rainy season, the situation on 
the ground must change and it must change quickly.
    There are too many tens upon tens of thousands of human 
beings who are at risk. Some of them have already been 
consigned to death in the future because of the circumstances 
they are living in now. They will not make it through the end 
of the year. Poor security, inadequate capacity, and heavy 
rains which will not diminish until later this month, continue 
to hamper the relief effort.
    The United Nations estimates that there are 1,227,000 
internally displaced persons in Darfur. In July, almost 950,000 
IDPs received food assistance. About 200,000 Sudanese refugees 
are being assisted by the UNHCR and partner organizations 
across the border in Chad. The World Food Program expects two 
million IDPs will need food aid by October.
    The U.S. Government provision of aid to the Darfur crisis 
in the Sudan and Chad totaled $211 million as of September 2, 
2004. This includes $112 million in food assistance, $50 
million in non-food assistance, $36 million for refugees in 
Chad, $5 million for refugee programs in Darfur, and $6.8 
million for the African Union mission.
    The United States also strongly supports the work of the AU 
monitoring mission in Darfur. In fact, we initiated the mission 
through base camp setup and logistic support by a private 
contractor that we are paying for. The AU mission is currently 
staffed with 125 AU monitors now deployed in the field, and 
those monitors have already completed 20 investigations of 
cease-fire violations and their reports are now being written 
up and being provided to the AU and to the U.N. and to the 
international community.
    The UA monitoring staff is supported by a protection force 
of 305 troops made up of a Rwandan contingent of 155 who 
arrived on August 15 and a Nigerian contingent of 150 who 
arrived on August 30. Recognizing the security problems in 
Darfur, the U.N. and the United States have begun calling for 
an expanded AU mission in Darfur through the provision of 
additional observers and additional protection forces so their 
presence can spread throughout this very, very large area that 
is about 80 percent the size of the State of Texas. It is not a 
simple geographic or monitoring or military mission. It is very 
complex.
    Khartoum seems to have expressed a willingness to consider 
such an expanded mission. I am pleased to announce, Mr. 
Chairman, that the State Department has identified $20.5 
million in fiscal year 2004 funds for initial support of this 
expanded AU mission. We look forward to consulting with 
Congress on meeting additional needs that such a mission might 
have.
    As you know, as we watch the month of July--as you watched 
through the month of July, we felt that more pressure was 
required. So we went to the United Nations and asked for a 
resolution and we got that resolution on July 30 after a bit of 
debate, but it was 13 to 0 with two abstentions.
    This resolution, 1556, demands that the Government of Sudan 
take action to disarm the janjaweed militia and bring janjaweed 
leaders to justice. It warns Khartoum that the Security Council 
will take further action and measures, which is the U.N. term 
for sanctions. Measures is not a softer word. It includes 
sanctions and any other measures that might be contemplated or 
available to the international community. And it warned 
Khartoum that the United Nations, through its Security Council, 
will take actions and measures if Sudan fails to comply.
    That resolution urges the warring parties to conclude a 
political agreement without delay, and it commits all states to 
target sanctions against the janjaweed militias and those who 
aid and abet them, as well as others who may share 
responsibility for this tragic situation.
    Too many lives have already been lost. We cannot lose any 
more time. We in the international community must intensify our 
efforts to help those imperiled by violence, starvation, and 
disease in Darfur. But the Government of Sudan bears the 
greatest responsibility to face up to this catastrophe, rein in 
those who are committing these atrocities, and save the lives 
of its own citizens.
    At the same time, however, the rebels have not fully 
respected the cease-fire, and we are disturbed at reports of 
rebel kidnaping of relief workers. We have emphasized to the 
rebels that they must allow unrestricted access of humanitarian 
relief workers and supplies, and that they must cooperate 
fully, including cooperating with the AU monitoring mission.
    We are pleased that the Government of Sudan and the rebels 
are currently engaged in talks in Abuja hosted by the AU. These 
talks are aimed at bringing about a political settlement in 
Darfur. The two sides have agreed on a protocol to facilitate 
delivery of much-needed humanitarian assistance to rebel-held 
areas, and are now engaged in discussions of protocol on 
security issues. These negotiations are difficult. We expect 
that they may be adjourned for a period of time after these 
initial agreements, and we are some ways away from seeing a 
political resolution between the two sides.
    We are urging both sides to intensify negotiations in order 
to reach a political settlement, and I have personnel from the 
State Department who are on the ground in Abuja on a full-time 
basis to assist the negotiators in their work.
    When I was in Khartoum earlier in the summer, I told 
President Bashir, Vice President Taha, Foreign Minister Ismail, 
the Minister of Interior, and others, that the United States 
wants to see a united, unified, prosperous, democratic Sudan. I 
told them that to that end we are fully prepared to work with 
them. I reminded them that we had reached an historic agreement 
on June 5, an agreement that we had worked on for so long, an 
agreement between the Government of Sudan and the Sudan 
People's Liberation Movement, the so-called North-South 
agreement. And this North-South agreement covered all of the 
outstanding issues that had been so difficult for these parties 
to come to agreement on, they had come to agreement on.
    Since then, the parties have been engaged in final 
negotiations on remaining details. However, the parties now are 
stuck on the specifics of a formal cease-fire agreement and 
have not yet begun the final round of implementation 
modalities. Special Envoy Sumbeiywo met recently with the 
parties, but could not resolve the remaining cease-fire-related 
issues.
    Khartoum appears unwilling to resume talks at the most 
senior level, claiming that it must focus on Darfur. That would 
be fine if its focus were the right focus, but it is not. The 
SPLM is more forward-leaning, but still focused on negotiating 
details. We believe that a comprehensive agreement would 
bolster efforts to resolve the crisis in Darfur by providing a 
legal basis for a political solution and by opening up the 
political process in Khartoum.
    President Bashir has repeatedly pledged to work for peace, 
and he pledged that again when I met with him earlier in the 
summer. But President Bush, this Congress, Secretary General 
Annan, and the international community want more than promises. 
We want to see dramatic improvements on the ground right now. 
Indeed, we wanted to see them yesterday. In the meantime, while 
we wait, we are doing all that we can.
    We are working with the international community to make 
sure all those nations who have made pledges of financial 
assistance and other kinds of assistance meet their pledges. We 
are not yet satisfied with the response from the international 
community to meeting the pledges that they have made. In fact, 
the estimated needs have grown, and the donor community needs 
to dig deeper.
    America has been in the forefront of providing assistance 
to the suffering people of Darfur and will remain in the 
forefront. But it is time for the entire international 
community to increase their assistance. The U.S. has pledged 
$299 million in humanitarian aid through fiscal year 2005 and 
$11.8 million to the AU mission, and we are well on our way to 
exceeding those pledges.
    Clearly, we will need more assistance in the future and we 
are looking at all of our accounts within the Department to see 
what we can do, and when we are beyond our ability to do more 
from within our current appropriations, we will have to come 
back to the Congress and make our request known.
    Secretary General Annan's August 30 report called for an 
expanded AU mission in Darfur to monitor commitments to the 
parties more effectively, thereby enhancing security and 
facilitating the delivery of humanitarian assistance. The 
Secretary General's report also highlighted Khartoum's failure 
to rein in and disarm the janjaweed militia, and noted that the 
Sudanese military continued to take part in attacks on 
civilians, including aerial bombardment and helicopter strikes.
    We have begun consultation in New York on a new resolution 
that calls for Khartoum to fully cooperate with an expanded AU 
force, and for cessation of Sudanese military flights over the 
Darfur region. It also provides for international overflights 
to monitor the situation in Darfur and requires the Security 
Council to review the record of Khartoum's compliance to 
determine if sanctions, including on the Sudanese petroleum 
sector, should be imposed.
    The resolution also urges the Government of Sudan and the 
SPLM to conclude negotiations, the Lake Naivasha negotiations, 
on a comprehensive peace accord.
    And, Mr. Chairman, there is finally the continuing question 
of whether what is happening in Darfur should be called 
genocide. Since the United States became aware of the 
atrocities occurring in Sudan, we have been reviewing the 
Genocide Convention and the obligations it places on the 
Government of Sudan and on the international community and on 
the state parties to the Genocide Convention.
    In July, we launched a limited investigation by sending a 
team to visit the refugee camps in Chad to talk to refugees and 
displaced personnel. The team worked closely with the American 
Bar Association and the Coalition for International Justice, 
and were able to interview 1,136 of the 2.2 million people the 
U.N. estimates have been affected by this horrible situation, 
this horrible violence.
    Those interviews indicated first a consistent and 
widespread pattern of atrocities, killings, rapes, burning of 
villages committed by janjaweed and government forces against 
non-Arab villagers. Three-fourths of those interviewed reported 
that the Sudanese military forces were involved in the attacks. 
Third, villagers often experienced multiple attacks over a 
prolonged period before they were destroyed by burning, 
shelling, or bombing, making it impossible for the villagers to 
return to their villages. This was a coordinated effort, not 
just random violence.
    When we reviewed the evidence compiled by our team and then 
put it beside other information available to the State 
Department and widely known throughout the international 
community, widely reported upon by the media and by others, we 
concluded, I concluded, that genocide has been committed in 
Darfur, and that the Government of Sudan and the janjaweed bear 
responsibility and that genocide may still be occurring.
    Mr. Chairman, we are making copies of the evidence that our 
team compiled available to you and to the public today. We are 
putting it up on our Web site now as I speak.
    We believe in order to confirm the true nature, scope, and 
totality of the crimes our evidence reveals, a full-blown and 
unfettered investigation needs to occur. Sudan is a contracting 
party to the Genocide Convention and is obliged under the 
Convention to prevent and to punish acts of genocide. To us at 
this time, it appears that Sudan has failed to do so.
    Article 8 of the Genocide Convention provides that 
contracting parties may, I'll quote now, ``may call upon the 
competent organs of the United Nations to take action, such 
action under the charter of the United Nations as they, the 
competent organs of the United Nations, as they consider 
appropriate, actions as they consider appropriate for the 
prevention and suppression of acts of genocide or any of the 
other acts enumerated under Article 3 of the Genocide 
Convention.''
    Because of that obligation under Article 8 of the 
Convention, and since the United States is one of the 
contracting parties, today we are calling on the United Nations 
to initiate a full investigation. To this end, the United 
States will propose that the next U.N. Security Council 
Resolution on Sudan requests a United Nations investigation 
into all violations of international humanitarian law and human 
rights law that have occurred in Darfur with a view to ensuring 
accountability.
    Mr. Chairman, as I have said, the evidence leads us to the 
conclusion, the United States to the conclusion that genocide 
has occurred and may still be occurring in Darfur. We believe 
the evidence corroborates the specific intent of the 
perpetrators to destroy a group in whole or in part, the words 
of the Convention. This intent may be inferred from their 
deliberate conduct. We believe other elements of the Convention 
have been met as well.
    Under the 1948 Convention on the Prevention and Punishment 
of the Crime of Genocide, to which both the United States and 
Sudan are parties, genocide occurs when the following three 
criteria are met: First, specific acts are committed, and those 
acts include killing, causing serious bodily or mental harm, 
deliberately inflicting conditions of life calculated to bring 
about physical destruction of a group in whole or in part, 
imposing measures to prevent births or forcibly transferring 
children to another group. Those are specified acts that if 
committed raise the likelihood that genocide is being 
committed.
    The second criteria, these acts are committed against 
members of a national, ethnic, racial, or religious group. And 
the third criterion is they are committed with intent to 
destroy in whole or in part the group as such.
    The totality of evidence from the interviews we conducted 
in July and August and from other sources available to us show 
us that the janjaweed and Sudanese military forces have 
committed large-scale acts of violence, including murders, 
rape, and physical assaults on non-Arab individuals.
    Second, the janjaweed and Sudanese military forces 
destroyed villages, foodstuffs, and other means of survival. 
Third, the Sudan Government and its military forces obstructed 
food, water, medicine, and other humanitarian aid from reaching 
affected populations, thereby leading to further deaths and 
suffering. And finally, despite having been put on notice 
multiple times, Khartoum has failed to stop the violence.
    Mr. Chairman, some seem to have been waiting for this 
determination of genocide to take action. In fact, however, no 
new action is dictated by this determination. We have been 
doing everything we can to get the Sudanese Government to act 
responsibly. So let us not be too preoccupied with this 
designation. These people are in desperate need and we must 
help them. Call it civil war, call it ethnic cleansing, call it 
genocide, call it none of the above. The reality is the same. 
There are people in Darfur who desperately need the help of the 
international community.
    I expect--I more than expect--I know that the Government in 
Khartoum will reject our conclusion of genocide anyway. 
Moreover, at this point, genocide is our judgment and not the 
judgment of the international community. Before the Government 
of Sudan is taken to the bar of international justice, let me 
point out that there is a simple way for Khartoum to avoid such 
wholesale condemnation by the international community, and that 
way is to take action to stop holding back, to stop 
dissembling.
    The Government in Khartoum should end the attacks and 
ensure its people, all of its people are secure, ensure that 
they are all secure. They should hold to account those who are 
responsible for past atrocities and ensure that current 
negotiations taking place in Abuja and also the Naivasha 
Accords are successfully concluded.
    That is the only way to peace and prosperity for this war-
ravaged land. Specifically, Mr. Chairman, the most practical 
contribution we can make to the security of Darfur in the short 
term is to do everything we can to increase the number of 
African Union monitors. That will require the cooperation of 
the Government of Sudan, and I am pleased that the African 
Union is stepping up to the task. It is playing a leadership 
role and countries within the African Union have demonstrated a 
willingness to provide a significant number of troops, and this 
is the fastest way to help bring security to the countryside 
through this expanded monitoring presence so we can see what it 
is going on and act to prevent it.
    In the intermediate and long term, the security of Darfur 
can best be advanced by a political settlement in Abuja and by 
the successful conclusion of the peace negotiations between the 
SPLM and the Government in Sudan, the Lake Naivasha Accords.
    Mr. Chairman, I will stop here and take your questions. 
Thank you.
    [The prepared statement of Secretary Powell follows:]

               Prepared Statement of Hon. Colin L. Powell

    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify on the situation in Darfur. Let me start by 
reviewing a little history.
    The violence in Darfur has complex roots in traditional conflicts 
between Arab nomadic herders and African farmers. The violence 
intensified during 2003 when two groups--the Sudan Liberation Movement 
and the Justice and Equality Movement--declared open rebellion against 
the Government of Sudan because they feared being on the outside of the 
power and wealth-sharing agreements in the north-south negotiations. 
Khartoum reacted aggressively, intensifying support for Arab militias, 
the so-called jinjaweid. The Government of Sudan supported the 
jinjaweid, directly and indirectly, as they carried out a scorched-
earth policy towards the rebels and the African civilian population.
    Mr. Chairman, the United States exerted strong leadership to focus 
international attention on this unfolding tragedy. We first took the 
issue of Sudan to the United Nations (UN) Security Council last fall. 
President Bush was the first head of state to condemn publicly the 
Government of Sudan and to urge the international community to 
intensify efforts to end the violence. In April of this year, the 
United States brokered a ceasefire between the Government of Sudan and 
the rebels, and then took the lead to get the African Union (AU) to 
monitor that ceasefire.
    As some of you are aware, I traveled to the Sudan in midsummer and 
made a point of visiting Darfur. It was about the same time that 
Congressman Wolf and Senator Brownback were there, as well as Secretary 
General Kofi Annan. In fact, the Secretary General and I were able to 
meet and exchange notes. We made sure that our message to the Sudanese 
government was consistent.
    Senator Brownback can back me up when I say that all of us saw the 
suffering that the people of Darfur are having to endure. And Senator 
Corzine was just in Darfur and can vouch for the fact that atrocities 
are still occurring. All of us met with people who had been driven from 
their homes--indeed many having seen their homes and all their worldly 
possessions destroyed or confiscated before their eyes--by the terrible 
violence that is occurring in Darfur.
    During my visit, humanitarian workers from my own Agency--USAID--
and from other Non-Governmental Organizations (NGOs), told me how they 
are struggling to bring food, shelter, and medicines to those so 
desperately in need--a population of well over one million.
    In my midsummer meetings with the Government of Sudan, we presented 
them with the stark facts of what we knew about what is happening in 
Darfur from the destruction of villages, to the raping and the killing, 
to the obstacles that impeded relief efforts. Secretary General Annan 
and I obtained from the Government of Sudan what they said would be 
firm commitments to take steps, and to take steps immediately, that 
would remove these obstacles, help bring the violence to an end, and do 
it in a way that we could monitor their performance.
    There have been some positive developments since my visit, and 
since the visit of Senator Brownback, Congressman Wolf, and the 
Secretary General.
    The Sudanese have met some of our benchmarks such as engaging in 
political talks with the rebels and supporting the deployment of 
observers and troops from the AU to monitor the ceasefire between 
Khartoum and the rebels. Some improvements in humanitarian access have 
also occurred though the government continues to throw obstacles in the 
way of the fullest provision of assistance.
    The AU Ceasefire Commission has also been set up and is working to 
monitor more effectively what is actually happening in Darfur. The 
general who is in charge of that mission, a Nigerian general by the 
name of Okonkwo, is somebody that we know well. He is the same Nigerian 
general who went into Liberia last year and helped stabilize the 
situation there.
    The AU's mission will help to restore sufficient security so that 
these dislocated, starving, hounded people can at least avail 
themselves of the humanitarian assistance that is available. But what 
is really needed is enough security so that they can go home. And what 
is really needed is for the jinjaweid militias to cease and desist 
their murderous raids against these people--and for the Government in 
Khartoum to stop being complicit in such raids. Khartoum has made no 
meaningful progress in substantially improving the overall security 
environment by disarming the jinjaweid militias or arresting its 
leaders.
    So we are continuing to press that government and we continue to 
monitor them. We continue to make sure that we are not just left with 
promises instead of actual action and performance on the ground. 
Because it is absolutely clear that as we approach the end of the rainy 
Season, the situation on the ground must change, and it must change 
quickly. There are too many tens upon tens of thousands of human beings 
who are at risk. Some of them have already been consigned to death 
because of the circumstances they are living in now. They will not make 
it through the end of the year. Poor security, inadequate capacity, and 
heavy rains (which will not diminish until late September) continue to 
hamper the relief effort.
    The UN estimates there are 1,227,000 Internally Displaced Persons 
(IDPs) in Darfur. In July, almost 950,000 IDPs received some form of 
food assistance. About 200,000 Sudanese refugees are being assisted by 
UNHCR and partner organizations in Chad. The World Food Program (WFP) 
expects two million IDPs will need food aid by October.
    U.S. Government provision of aid to the Darfur crisis in Sudan and 
Chad totaled $211.3 million as of September 2, 2004: This includes 
$112.9 million in food assistance, $50.2 million in non-food 
assistance, and $36.4 million for refugees in Chad, $5 million for 
refugee programs in Darfur, and $6.8 million for the African Union 
mission.
    The U.S. also strongly supports the work of the AU monitoring 
mission in Darfur. In fact, we initiated the Mission through base camp 
set-up and logistics support by a private contractor. The Mission is 
staffed with 125 AU monitors now deployed in the field and has 
completed approximately 20 investigations of cease-fire violations. The 
AU monitoring staff is supported by a protection force of 305, made up 
of a Rwandan contingent of 155 (they arrived on August 15) and a 
Nigerian contingent of 150 (they arrived on August 30). Recognizing the 
security problems in Darfur, the UN and the U.S. have begun calling for 
an expanded AU mission in Darfur through the provision of additional 
observers and protection forces. Khartoum appears to have signaled a 
willingness to consider an expanded mission.
    I am pleased to announce, Mr. Chairman, that the State Department 
has identified $20.5 million in FY04 funds for initial support of this 
expanded mission. We look forward to consulting with the Congress on 
meeting additional needs.
    As you know, as we watched through the month of July, we felt more 
pressure was required. So we went to the UN and asked for a resolution. 
We got it on July 30.
    Resolution 1556 demands that the Government of Sudan take action to 
disarm the jinjaweid militia and bring jinjaweid leaders to justice. It 
warns Khartoum that the Security Council will take further actions and 
measures--UN-speak for sanctions--if Sudan fails to comply. It urges 
the warring parties to conclude a political agreement without delay and 
it commits all states to target sanctions against the jinjaweid 
militias and those who aid and abet them as well as others who may 
share responsibility for this tragic situation. Too many lives have 
already been lost. We cannot lose any more time. We in the 
international community must intensify our efforts to help those 
imperiled by violence, starvation and disease in Darfur.
    But the Government of Sudan bears the greatest responsibility to 
face up to this catastrophe, rein in those who are committing these 
atrocities, and save the lives of its own citizens. At the same time, 
however, the rebels have not fully respected the ceasefire. We are 
disturbed at reports of rebel kidnapings of relief workers. We have 
emphasized to the rebels that they must allow unrestricted access of 
humanitarian relief workers and supplies and cooperate fully, including 
with the AU monitoring mission.
    We are pleased that the Government of Sudan and the rebels are 
currently engaged in talks in Abuja, hosted by the AU. These talks are 
aimed at bringing about a political settlement in Darfur. The two sides 
have agreed on a protocol to facilitate delivery of much-needed 
humanitarian assistance to rebel-held areas, and are now engaged in 
discussions of a protocol on security issues. We are urging both sides 
to intensify negotiations in order to reach a political settlement.
    At midsummer, I told President Bashir, Vice President Taha, Foreign 
Minister Ismail, the Minister of Interior and others, that the United 
States wants to see a united, prosperous, democratic Sudan. I told them 
that to that end we are fully prepared to work with them. I reminded 
them that we had reached an historic agreement on June 5--an agreement 
between the Government of Sudan and the Sudan People's Liberation 
Movement (SPLM). That agreement covered all the outstanding issues in 
the north-south process.
    Since then, the parties have been engaged in final negotiations on 
remaining details. However, the parties are stuck on the specifics of a 
formal ceasefire agreement and have not yet begun the final round of 
implementation modalities. Special Envoy Sumbeiywo met recently with 
the parties, but could not resolve the remaining ceasefire-related 
issues. Khartoum appears unwilling to resume talks at the most senior 
level, claiming it must focus on Darfur. That would be fine if its 
focus were the right focus. But it is not. The SPLM is more forward 
leaning, but still focused on negotiating details. We believe that a 
comprehensive agreement would bolster efforts to resolve the crisis in 
Darfur by providing a legal basis for a political solution 
(decentralization) and by opening up the political process in Khartoum.
    President Bashir has repeatedly pledged to work for peace, and he 
pledged that again when we met in midsummer. But President Bush, this 
Congress, Secretary General Annan and the international community want 
more than promises. We want to see dramatic improvements on the ground 
right now. Indeed, we wanted to see them yesterday.
    In the meantime, we are doing all that we can. We are working with 
the international community to make sure that all of those nations who 
have made pledges of financial assistance meet those pledges. In fact, 
the estimated needs have grown and the donor community needs to dig 
deeper. America has been in the forefront of providing assistance to 
the suffering people of Darfur and will remain in the forefront. But it 
is time for the entire international community to increase their 
assistance. The U.S. has pledged $299 million in humanitarian aid 
through FY05, and $11.8 million to the AU mission, and we are well on 
the way to exceeding these pledges.
    SYG Annan's August 30 report called for an expanded AU mission in 
Darfur to monitor commitments of the parties more effectively, thereby 
enhancing security and facilitating the delivery of humanitarian 
assistance. The report also highlighted Khartoum's failure to rein in 
and disarm the jinjaweid militia, and noted that the Sudanese military 
continued to take part in attacks on civilians, including aerial 
bombardment and helicopter strikes.
    We have begun consultation in New York on a new resolution that 
calls for Khartoum to cooperate fully with an expanded AU force and for 
cessation of Sudanese military flights over the Darfur region. It also 
provides for international overflights to monitor the situation in 
Darfur and requires the Security Council to review the record of 
Khartoum's compliance to determine if sanctions, including on the 
Sudanese petroleum sector, should be imposed. The resolution also urges 
the Government of Sudan and the SPLM to conclude negotiations on a 
comprehensive peace accord.
    And finally there is the matter of whether or not what is happening 
in Darfur is genocide.
    Since the U.S. became aware of atrocities occurring in Sudan, we 
have been reviewing the Genocide Convention and the obligations it 
places on the Government of Sudan.
    In July, we launched a limited investigation by sending a team to 
refugee camps in Chad. They worked closely with the American Bar 
Association and the Coalition for International Justice and were able 
to interview 1,136 of the 2.2 million people the UN estimates have been 
affected by this horrible violence. Those interviews indicated:

  <bullet> A consistent and widespread pattern of atrocities (killings, 
        rapes, burning of villages) committed by jinjaweid and 
        government forces against non-Arab villagers;

  <bullet> Three-fourths (74%) of those interviewed reported that the 
        Sudanese military forces were involved in the attacks;

  <bullet> Villages often experienced multiple attacks over a prolonged 
        period before they were destroyed by burning, shelling or 
        bombing, making it impossible for villagers to return.

    When we reviewed the evidence compiled by our team, along with 
other information available to the State Department, we concluded that 
genocide has been committed in Darfur and that the Government of Sudan 
and the jinjaweid bear responsibility--and genocide may still be 
occurring. Mr. Chairman, we are making copies of the evidence our team 
compiled available to this committee today.
    We believe in order to confirm the true nature, scope and totality 
of the crimes our evidence reveals, a full-blown and unfettered 
investigation needs to occur. Sudan is a contracting party to the 
Genocide Convention and is obliged under the Convention to prevent and 
to punish acts of genocide. To us, at this time, it appears that Sudan 
has failed to do so.
    Article VIII of the Genocide Convention provides that Contracting 
Parties ``may call upon the competent organs of the United Nations to 
take such action under the Charter of the United Nations as they 
consider appropriate for the prevention and suppression of acts of 
genocide or any of the other acts enumerated in Article III.''
    Today, the U.S. is calling on the UN to initiate a full 
investigation. To this end, the U.S. will propose that the next UN 
Security Council Resolution on Sudan request a UN investigation into 
all violations of international humanitarian law and human rights law 
that have occurred in Darfur, with a view to ensuring accountability.
    Mr. Chairman, as I said the evidence leads us to the conclusion 
that genocide has occurred and may still be occurring in Darfur. We 
believe the evidence corroborates the specific intent of the 
perpetrators to destroy ``a group in whole or in part.'' This intent 
may be inferred from their deliberate conduct. We believe other 
elements of the convention have been met as well.
    Under the 1948 Convention on the Prevention and Punishment of the 
Crime of Genocide, to which both the United States and Sudan are 
parties, genocide occurs when the following three criteria are met:

  <bullet> specified acts are committed:

          a) killing;

          b) causing serious bodily or mental harm;

          c) deliberately inflicting conditions of life calculated to 
        bring about physical destruction of a group in whole or in 
        part;

          d) imposing measures to prevent births; or

          e) forcibly transferring children to another group;

  <bullet> these acts are committed against members of a national, 
        ethnic, racial or religious group: and

  <bullet> they are committed ``with intent to destroy. in whole or in 
        part [the group] as such''.

    The totality of the evidence from the interviews we conducted in 
July and August, and from the other sources available to us, shows 
that:

  <bullet> The jinjaweid and Sudanese military forces have committed 
        large-scale acts of violence, including murders, rape and 
        physical assaults on non-Arab individuals;

  <bullet> The jinjaweid and Sudanese military forces destroyed 
        villages, foodstuffs, and other means of survival;

  <bullet> The Sudan Government and its military forces obstructed 
        food, water, medicine, and other humanitarian aid from reaching 
        affected populations, thereby leading to further deaths and 
        suffering; and

  <bullet> Despite having been put on notice multiple times, Khartoum 
        has failed to stop the violence.

    Mr. Chairman, some seem to have been waiting for this determination 
of genocide to take action. In fact, however, no new action is dictated 
by this determination. We have been doing everything we can to get the 
Sudanese government to act responsibly. So let us not be preoccupied 
with this designation of genocide. These people are in desperate need 
and we must help them. Call it a civil war. Call it ethnic cleansing. 
Call it genocide. Call it ``none of the above.'' The reality is the 
same: there are people in Darfur who desperately need our help.
    I expect that the government in Khartoum will reject our conclusion 
of genocide anyway. Moreover, at this point genocide is our judgment 
and not the judgment of the International Community. Before the 
Government of Sudan is taken to the bar of international justice, let 
me point out that there is a simple way for Khartoum to avoid such 
wholesale condemnation. That way is to take action.
    The government in Khartoum should end the attacks, ensure its 
people--all of its people--are secure, hold to account those who are 
responsible for past atrocities, and ensure that current negotiations 
are successfully concluded. That is the only way to peace and 
prosperity for this war-ravaged land.
    Specifically, Mr. Chairman, the most practical contribution we can 
make to the security of Darfur in the short-term is to increase the 
number of African Union monitors. That will require the cooperation of 
the Government of Sudan.
    In the intermediate and long term, the security of Darfur can be 
best advanced by a political settlement at Abuja and by the successful 
conclusion of the peace negotiations between the SPLM and the 
Government of Sudan.
    Mr. Chairman, I will stop here and take your questions.

                               __________

                    Documenting Atrocities in Darfur
          (A Report Prepared by the U.S. Department of State)

                                SUMMARY

    The conflict between the Government of Sudan (GOS) and two rebel 
groups that began in 2003 has precipitated the worst humanitarian and 
human rights crisis in the world today. The primary cleavage is ethnic: 
Arabs (GOS and militia forces) vs. non-Arab villagers belonging 
primarily to the Zaghawa, Massalit, and Fur ethnic groups. Both groups 
are predominantly Muslim.
    A U.S. Government project to conduct systematic interviews of 
Sudanese refugees in Chad reveals a consistent and widespread pattern, 
of atrocities committed against non-Arab villagers in the Darfur region 
of western Sudan. This assessment is based on semi-structured 
interviews with 1,136 randomly selected refugees in 19 locations in 
eastern Chad. Most respondents said government forces, militia 
fighters, or a combination of both had completely destroyed their 
villages. Sixty-one percent of the respondents witnessed the killing of 
a family member; 16 percent said they had been raped or had heard about 
a rape from a victim. About one-third of the refugees heard racial 
epithets while under attack. Four-fifths said their livestock was 
stolen; nearly half asserted their personal property was looted. This 
assessment highlights incidents and atrocities that have led to the 
displacement of large portions of Darfur's non-Arabs.
    An Atrocities Documentation Team, assembled at theinitiative of the 
U.S. Department of State's Bureau of Democracy, Human Rights and Labor 
(DRL), conducted interviews in Chad in July and August. The team was 
primarily composed of independent experts recruited by the Coalition 
for International Justice (CIJ), and also included experts from the 
American Bar Association (ABA), DRL, and the State Department's Bureau 
of Intelligence and Research (INR) as well as the US Agency for 
International Development (USAID). INR was responsible for compiling 
the survey data and producing the final report. USAID met the costs of 
the CIJ and ABA.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Humanitarian Crisis
    As of August 2004, based on available information, more than 405 
villages in Darfur had been completely destroyed, with an additional 
123 substantially damaged, since February 2003. Approximately 200,000 
persons had sought refuge in eastern Chad as of August, according to 
the UN High Commissioner for Refugees (UNHCR); the UN Office for the 
Coordination of Humanitarian Affairs reports another 1.2 million 
internally displaced persons (IDPs) remain in western Sudan. The total 
population of Darfur is 6 million. The lack of security in the region 
continues to threaten displaced persons. Insecurity and heavy rains 
continue to disrupt humanitarian assistance. The UN World Food Program 
provided food to nearly 940,000 people in Darfur in July. Nonetheless, 
since the beginning of the Darfur food program, a total of 82 out of 
154 concentrations of IDPs have received food, leaving 72 locations 
unassisted. Relief and health experts warn that malnutrition and 
mortality are likely to increase as forcibly displaced and isolated 
villagers suffer from hunger and infectious diseases that will spread 
quickly among densely populated and malnourished populations. The 
health situation for the 200,000 refugees in Chad is ominous. The 
relief access to IDPs in Darfur since July, but problems, including 
lack of security and seasonal rains, have hampered relief programs. 
Survey results indicate that most Sudanese refugees state that 
Jingaweit militias and GOS military forces collaborate in carrying out 
systematic attacks against non-Arab villages in Darfur.
    U.S. Centers for Disease Control and Prevention estimate that one 
in three children in the refugee settlements in Chad is suffering from 
acute malnutrition and that crude mortality rates are already well 
above emergency threshold levels (one per 10,000 per day).

Human Rights Crisis
    The non-Arab population of Darfur continues to suffer from crimes 
against humanity. A review of 1,136 interviews shows a consistent 
pattern of atrocities, suggesting close coordination between GOS forces 
and Arab militia elements, commonly known as the Jingaweit (Janjaweed). 
(``Jingaweit'' is an Arabic term meaning ``horse and gun.'')
    Despite the current cease-fire and UN Security Council Resolution 
1556, Jingaweit violence against civilians has continued (cease-fire 
violations by both the Jingaweit and the rebels have continued as 
well). Media reports on August 10, 16, and 19 chronicled GOS Jingaweit 
attacks in Western Darfur. In addition to their work on the survey, the 
interviewers had the opportunity to speak with newly arrived refugees 
who provided accounts that tended to confirm press reports of 
continuing GOS participation in recent attacks. Refugees who fled the 
violence on August 6 and 8 spoke with the team, providing accounts 
consistent with media reports: joint GOS military and Jingaweit 
attacks; strafing by helicopter gun ships followed by ground attacks by 
the GOS military in vehicles and Jingaweit on horseback; males being 
shot or knifed; and women being abducted or raped. Respondents reported 
these attacks destroyed five villages. Multiple respondents also 
reported attacks on the IDP camp of Arja.
    The UN estimates the violence has affected 2.2 million of Darfur's 
6 million residents. The GOS claims it has been unable to prevent 
Jingaweit atrocities and that the international community has 
exaggerated the extent and nature of the crisis. The GOS has improved 
international

Ethnographic Background
    Darfur covers about one-fifth of Sudan's vast territory and is home 
to one-seventh of its population. It includes a mixture of Arab and 
non-Arab ethnic groups, both of which are predominantly Muslim (see map 
below). The Fur ethnic group (Darfur means ``homeland of the Fur'') is 
the largest non-Arab ethnic group in the region. Northern Darfur State 
is home to the nomadic non-Arab Zaghawa but also includes a significant 
number of Arabs, such as the Meidab. Sedentary non-Arabs from the Fur, 
Massalit, Daju, and other ethnic groups live in Western Darfur State. 
The arid climate and the competition for scarce resources over the 
years have contributed to recurring conflict between nomadic Arab 
herders and non-Arab farmers, particularly over land and grazing 
rights. Various ethnic groups have fought over access to water, grazing 
rights, and prized agricultural land as desertification has driven 
herders farther south.

Political and Military Conflict
    Ethnic violence affected the Darfur region in the 1980s. In 1986, 
Prime Minister Sadiq al-Mandi armed the ethnic-Arab tribes to fight 
John Garang's Sudanese People's Liberation Army (SPLA). After helping 
the GOS beat back an SPLA attack in Darfur in 1991, one of these Arab 
tribes sought to resolve ancient disputes over land and water rights by 
attacking the Zaghawa, Fur, and Massalit peoples. Arab groups launched 
a campaign in Southern Darfur State that resulted in the destruction of 
some 600 non-Arab villages and the deaths of about 3,000 people. The 
GOS itself encouraged the formation of an ``Arab Alliance'' in Darfur 
to keep non-Arab ethnic groups in check. Weapons flowed into Darfur and 
the conflict spread. After President Bashir seized power in 1989, the 
new government disarmed non-Arab ethnic groups but allowed politically 
loyal Arab allies to keep their weapons.
    In February 2003, rebels calling themselves the Darfur Liberation 
Front (DLF) attacked GOS military installations and the provincial 
capital of Al Fashir. The DLF complained of economic marginalization 
and demanded a power sharing arrangement with the GOS. In March 2003, 
the DLF changed its name to the Sudan Liberation Movement/Army (SLM/A), 
intensified its military operations, unveiled a political program for a 
``united democratic Sudan,'' and bolstered its strength to some 4,000 
rebels. The Justice and Equality Movement, with fewer than 1,000 
rebels, was established in 2002 but has since joined the SLM/A in 
several campaigns against GOS forces.
    The GOS has provided support to Arab militiamen attacking non-Arab 
civilians, according to press and NGO reports. Refugee accounts 
corroborated by US and other independent reporting suggest that 
Khartoum has continued to provide direct support for advancing 
Jingaweit. Aerial bombardment and attacks on civilians reportedly have 
occurred widely throughout the region; respondents named more than 100 
locations that experienced such bombardment (see map, p. 8). The extent 
to which insurgent base camps were co-located with villages and 
civilians is unknown. The number of casualties caused by aerial 
bombardment cannot be determined, but large numbers of Darfurians have 
been forced to flee their villages. According to press and NGO reports, 
the GOS has given Jingaweit recruits salaries, communication equipment, 
arms, and identity cards.

Current International Response
    On July 30, 2004, the UN Security Council adopted Resolution 1556, 
which demanded that the GOS fulfill commitments it made to disarm the 
Jingaweit militias and apprehend and bring to justice Jingaweit leaders 
and their associates; it also called on the GOS to allow humanitarian 
access to Darfur, among other things. The UN placed an embargo on the 
sale or supply of materiel and training to non-governmental entities 
and individuals in Darfur. The resolution endorsed the African Union 
deployment of monitors and a protection force to Darfur. It requested 
the Secretary-General to report on GOS progress in 30 days and held out 
the possibility of further actions, including sanctions, against the 
GOS in the event of non-compliance.
    The Security Council has expressed its deep concern over reports of 
large-scale violations of human rights and international humanitarian 
law in Darfur. The main protection concerns identified by the UN and 
corroborated by the Atrocities Documentation Team include threats to 
life and freedom of movement, forced relocation, forced return, sexual 
violence, and restricted access to humanitarian assistance, social 
services, sources of livelihood, and basic services. Food security has 
been precarious and will probably worsen as the rainy season continues. 
Many displaced households no longer can feed themselves because of the 
loss of livestock and the razing of food stores.
    Relief agencies' access to areas outside the state capitals of Al 
Junaynah, Al Fashir, and Nyala was limited until late May. Visits by UN 
Secretary-General Annan and Secretary of State Powell in June 2004 
brought heightened attention to the growing humanitarian crisis. As a 
result, the GOS lifted travel restrictions and announced measures to 
facilitate humanitarian access. Nonetheless, serious problems remain, 
specifically capacity, logistics, and security for relief efforts. 
USAID's Disaster Assistance Response Team and other agencies have 
deployed additional staff to increase emergency response capacity.

Refugee Interviews--Survey Results
    The Atrocities Documentation Team conducted a random sample survey 
of Darfurian refugees in eastern Chad in July and August 2004. The team 
interviewed 1,136 refugees, many of whom had endured harsh journeys 
across the desolate Chad-Sudan border.
    A plurality of the respondents were ethnic Zaghawa (46 percent), 
with smaller numbers belonging to the Fur (8 percent) and Massalit (30 
percent) ethnic groups. Slightly more than half the respondents (56 
percent) were women. (See map, p. 6, showing ethnicity of respondent 
refugees.)
    Analysis of the refugee interviews points to a pattern of abuse 
against members of Darfur's non-Arab communities, including murder, 
rape, beatings, ethnic humiliation, and destruction of property and 
basic necessities. Many of the reports detailing attacks on villages 
refer to government and militia forces, preceded by aerial bombardment, 
acting together to commit atrocities. Respondents said government and 
militia forces wore khaki or brown military uniforms. Roughly one-half 
of the respondents noted GOS forces had joined Jingaweit irregulars in 
attacking their villages. Approximately one-quarter of the respondents 
said GOS forces had acted alone; another 14 percent said the Jingaweit 
had acted alone. Two-thirds of the respondents reported aerial bombings 
against their villages; four-fifths said they had witnessed the 
complete destruction of their villages. Sixty-one percent reported 
witnessing the killing of a family member. About one-third of the 
respondents reported hearing racial epithets while under attack; one-
quarter witnessed beatings. Large numbers reported the looting of 
personal property (47 percent) and the theft of livestock (80 percent).
    Most reports followed a similar pattern:

          (1) GOS aircraft or helicopters bomb villages.

          (2) GOS soldiers arrive in trucks, followed closely by 
        Jingaweit militia riding horses or camels.

          (3) GOS soldiers and militia surround and then enter 
        villages, under cover of gunfire.

          (4) Fleeing villagers are targets in aerial bombing.

          (5) The Jingaweit and GOS soldiers loot the village after 
        most citizens have fled, often using trucks to remove 
        belongings.

          (6) Villages often experience multiple attacks over a 
        prolonged period before they are destroyed by burning or 
        bombing.

    When describing attacks, refugees often referred to GOS soldiers 
and Jingaweit militias as a unified group; as one refugee stated, ``The 
soldiers and Jingaweit, always they are together.'' The primary victims 
have been non-Arab residents of Darfur. Numerous credible reports 
corroborate the use of racial and ethnic epithets by both the
    Jingaweit and GOS military personnel; ``Kill the slaves; Kill the 
slaves!'' and ``We have orders to kill all the blacks'' are common. One 
refugee reported a militia member stating, ``We kill all blacks and 
even kill our cattle when they have black calves.'' Numerous refugee 
accounts point to mass abductions, including persons driven away in GOS 
vehicles, but respondents usually do not know the abductees' fate. A 
few respondents indicated personal knowledge of mass executions and 
gravesites.
    A subset of 400 respondents were asked about rebel activity in or 
near their villages. Nearly nine in 10 said there was no rebel activity 
before the attack. Nine percent noted rebels were in the vicinity; 2 
percent said the rebels were present in their villages. The 
overwhelming majority (91 percent) said their village was not defended 
at all against the attack. One percent asserted their village had been 
successfully defended and another 8 percent cited an unsuccessful 
defense.
    Respondents reported ethnic tensions in the region had risen over 
the past few years. For example, markets in which non-Arabs and Arabs 
had previously interacted have become segregated, and almost all 
villages are now said to be ethnically homogenous. According to many of 
the interviewees, GOS soldiers and Jingaweit attacked villages because 
of their non-Arab populations; men of fighting age have been abducted, 
executed, or both; and women and girls have been abducted and raped.
    Rape as a Weapon.--Sixteen percent of the respondents said either 
that they had been raped or had heard about a rape from a victim:
    One woman told the team that she had been raped repeatedly in front 
of her father by members of the Sudanese military and Jingaweit. 
Afterward, her father was dismembered in front of her.
    Another woman recounted how five Jingaweit men held her for a week 
against her will and repeatedly raped her in front of her nine-month-
old daughter. At one point, the woman was allowed to pick up the crying 
baby. When the baby continued to cry, one of the men grabbed her and 
hit her with the butt-end of a rifle. The mother and child escaped and 
made their way to a refugee camp in southern Chad.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Refugee Interviews--Survey Methodology
    This report is based on results from personal interviews conducted 
by three teams between July 12 and August 18, 2004. DRL, USAID, and the 
Coalition for International Justice jointly designed the questionnaire 
in conjunction with other NGOs. INR provided technical assistance on 
questionnaire design and survey methodology.The teams used a semi-
structured interviewing approach that permitted the refugees to give 
the broadest possible accounts of the events they had experienced. The 
interviews were conducted in 19 locations in eastern Chad, including 
UNHCR camps and informal settlements.
    Refugees were selected using a systematic, random sampling approach 
designed to meet the conditions in Chad. Interviewers randomly selected 
a sector within a refugee camp and then, from a fixed point within the 
sector, chose every 10th dwelling unit for interviewing. All adults 
were listed within the dwelling unit, and one adult was randomly 
selected. This methodology ensures the results are as representative as 
possible in light of refugee conditions. Interviews took place in 
private, with only the refugee, a translator, and the interviewer 
present.
    Several characteristics of the survey must be underscored. First, 
accounts of atrocities may be dated, depending on when the individual 
refugee fled his or her village. Second, the data may actually 
undercount the extent of atrocities because mass attacks often leave 
few survivors. Third, most respondents come from villages within 50 
miles of the border in Western Darfur and Northern Darfur States. 
Fourth, it is very likely that rapes are underreported because of the 
social stigma attached to acknowledging such violations of female 
members of one's family.
    The results are broadly representative of Darfurian refugees in 
Chad but may not be representative of internally displaced persons 
still in Darfur because they were not included in the sample. A margin 
of error for this sample cannot be calculated because of the lack of 
accurate demographic information about the refugee camps and 
settlements. The methodology was designed to achieve as broadly 
representative a sample as was feasible under the prevailing 
conditions. Dates of events reported by refugees frequently utilized 
the Islamic calendar; these dates were then converted to dates on the 
Gregorian calendar. (See map above showing interview locations.)
    The field data for the 1,136 interviews were compiledusing a 
standardized data entry process that involved the collection and coding 
of detailed information from each refugee respondent's set of answers. 
The researchers then used a statistical program to aggregate the data 
and analyze the results.

A Refugee's Story
    At Am Nabak, the team interviewed a woman living in the camp with 
her two-year-old daughter and husband. Her four-year-old child has been 
missing since her village was bombed by an aircraft and attacked by 
ground forces. She noted that the village was bombed repeatedly, and 
then the military entered along with Jingaweit militia. While ground 
forces set fire to the homes, helicopter gun ships shot at villagers 
trying to escape.
    She explained that when fleeing, she was able to bring only one 
child. ``You try to take all your children with you but sometimes you 
can't and have to quickly decide to take one or two of them. You hope 
that those able to run will follow you.''

    The Chairman. Thank you very much, Secretary Powell.
    We have, as should be anticipated, a very good attendance 
of the committee this morning, and so the Chair will ask that 
we have a limit of 7 minutes for questions and answers by 
members.
    I'll begin the questioning by noting that constituents of 
mine discussing Darfur raise almost inevitably two lines of 
questions, one of which is, is diplomacy without backing of 
military force sufficient to convince any government, 
particularly one as intransigent as the one in Sudan, that the 
United States, the world community, the United Nations, 
anybody, means business? In other words, many constituents 
would say, this is incredible, when the Sudan situation goes on 
like the brook forever. No one seems to step in, no one is 
decisive with regard to this.
    Now, on the other hand, constituents would also say we do 
not believe United States forces ought to be in Sudan. European 
countries have said about the same thing. Most countries have 
said essentially, we're already in a war against terrorism. 
Sometimes this is translated as a war against Islam, a war 
against Arab nations. Clearly, whether it is genocide as you 
are trying to describe it, there is an attempt being made in 
Sudan by one part of the country, those that I think you've 
described as Arabs against non-Arab settlers, to exterminate a 
lot of people. Over a million people or maybe two million, are 
involved in this process.
    So the story goes, in the event that the United States 
becomes militarily involved, we inflame Arab states, we inflame 
everybody in the Middle East who already is inflamed over Iraq 
or over Iran or various other problems that we have in 
Palestine and Israel. So as a result, that's a non-starter. 
Therefore one editorial after another advises you to be 
stronger diplomatically. The thought is, the military thing 
just won't work. The world is not prepared to go in and 
straighten out Sudan, and simply say to this government to stop 
it and make peace.
    So we call upon African Union countries to hopefully 
volunteer a few more people, to pay for their stay there. 
They're somewhat reluctant but coming along. Whether they make 
a difference, the credibility of that really is at stake. Will 
Sudan pay much attention to a few hundred African Union 
persons, or maybe even a few thousand, or monitoring, as 
opposed to putting coercion on the government itself.
    Now, sir, the second line of questioning of my constituents 
comes back to the U.N. You, as Secretary of State have gone to 
the United Nations and you're getting success through, a 
resolution. It is not easy to do this. Ambassador Danforth is 
working the problem every day. He's on television expressing 
very strong feelings about this. He was involved in the North-
South negotiations, and has a tremendous background to talk 
about this problem.
    But constituents would say this once again proves that the 
U.N. is not very effective. In essence, you go to the mat, you 
get resolutions, but what does it mean? Does anybody, including 
the Government of Sudan, pay any attention to the U.N., when it 
comes down to it, if gut reactions within the country, as well 
as the domestic politics, have brought about something akin to 
civil war, if not genocide?
    At the end of the day, the hope is that by having these 
resolutions, and hearings like this, world attention and 
somebody in Sudan will pay attention, and maybe they will. But 
on the other hand, there's skepticism as the months go on. The 
people die, and the weather gets bad, as you're describing. It 
is not clear that this is timely or enough. This is the 
conundrum that you and the President are placed into in terms 
of our policy.
    How do we resolve this issue of credibility? Why would 
anybody in Sudan today pay attention to what we're doing here, 
aside from the fact that we feel strongly about it, and we're 
speaking out? A large attendance in the hearing room testifies 
to that. Why would anyone in Sudan change his or her mind with 
regard to the leadership situation?
    Secretary Powell. Well, I can assure you that the leaders 
in Khartoum are watching this hearing very, very carefully, and 
they are not completely indifferent or invulnerable to the 
effective international pressure. As a result of Kofi Annan's 
visit, my visit, visit of Members of Congress recently, Senator 
Frist's visit, many have been there, we did succeed over the 
last 2\1/2\ months in opening up a humanitarian system that had 
pretty much been shut down by the Sudanese.
    When I went there at the end of June with Kofi Annan, they 
were not issuing travel permits. They were not giving visas. 
They were keeping humanitarian supplies and vehicles stuck in 
the ports. All that has now opened up. So that pressure worked 
with respect to getting the humanitarian aid in right now. 
Frankly, the more serious problem now is getting it 
distributed, the retail distribution of the aid, and making 
sure those who promised aid actually produce the aid. So there 
has been a response in that regard.
    There has been a response with respect to not objecting to 
the African Union monitoring group and allowing protection 
forces to come in with those monitors. There has been a 
response in terms of political dialog that is now taking place 
in Abuja. It took us a while to do that. And the threat of 
sanctions is still out there over them, particularly in the 
sector that is of greatest concern to them, and that is oil, a 
principal source of revenue.
    Where we have not seen the kind of success we really need 
to see has been security, and we have had difficulty with this. 
We made it clear to the Sudanese that ultimately security is 
the problem, it is not just humanitarian aid. Humanitarian aid 
wouldn't be a problem if there was security so people can go 
back to their villages and take care of themselves.
    And so we have to keep applying pressure. Now, diplomacy 
with the threat of force is always much more effective, but it 
is not just because people are not anxious to get involved in 
Darfur with their military forces. But when you take a look at 
Darfur, the size of the place, the very rugged and isolated 
nature of the country and what would the mission be of such 
forces coming from outside into a sovereign government, it's a 
daunting mission to contemplate for the reasons that you 
mentioned, Mr. Chairman.
    And therefore, what the international community has 
determined, what we have determined, is the best way to go 
about this is continue to apply pressure on the Government of 
Sudan to take responsibility for its own territory and its own 
people. And they are not immune from diplomatic pressure, as we 
have seen, but we have to increase the pressure.
    We also have to do it in a calibrated way, because there 
are political challenges inside of Khartoum within the 
government between hard-liners who resent any kind of pressure 
and those who believe that they have to respond to the concern 
and pressure applied by the international community. So what we 
have to do is calibrate the pressure. There is nobody prepared 
to send troops in there from the United States or the European 
Union or elsewhere to put it down in the sense of an imposition 
force.
    What we do have is a willingness on the part of the African 
Union, and I'm very pleased that they have shown this 
willingness, to send in thousands of monitors and protection 
forces for those monitors. And I think if you get a goodly 
number of these folks in and their presence is felt throughout 
the countryside of Darfur, you have a better chance of bringing 
the situation under control and helping the Sudanese Government 
or giving them greater incentive to bring it under control.
    The Chairman. Thank you very much, Mr. Secretary.
    Let me just note procedurally that we've been joined by our 
distinguished majority leader. We are delighted that he will 
participate. I will, however, continue to go to both sides of 
the aisle. In the questioning, I'll call upon Senator Sarbanes 
next, and then I'll call upon the majority leader, and we'll 
proceed in that way.
    Senator Sarbanes. Mr. Chairman, I'm willing to defer if the 
majority leader needs to proceed now. I know he has a very 
intense schedule.
    Senator Frist. I do not, and I appreciate the chance to 
make really a fairly brief statement, but----
    Senator Sarbanes. Well, go ahead.
    Senator Frist [continuing]. I would prefer to follow the 
ranking member. Thank you.
    Senator Sarbanes. Well, Mr. Chairman, first of all, I think 
it's extremely important that this crisis in the Sudan be 
addressed at the highest possible level in our government, and 
therefore I want to commend you and Senator Biden for holding 
this hearing today, and to express to Secretary Powell our 
appreciation for his coming to be before us today.
    I'm going to yield my time to Senator Corzine, who's just 
returned from the Sudan--he was there just last week. He has 
some, I think, extremely helpful perceptions and insights about 
the situation there. It's a matter on which he's taken a very 
keen interest, as we all well know, and I'll assure my 
colleagues I'll go to the end of the queue as a consequence. 
Thank you very much.
    The Chairman. Senator Corzine.
    Senator Corzine. Thank you, Senator Sarbanes.
    Let me say, Mr. Chairman, I think it would be appropriate 
if I yielded to the majority leader since he was also there and 
I think all of us would benefit from his commentary.
    The Chairman. All right. Well then----
    Senator Frist. I'll jump right in. I'll take it. If nobody 
else wants it, I'll take it.
    Senator Sarbanes. This is an example of trying to get it to 
the highest levels of the government.
    Senator Frist. I like being majority leader of this body, 
you know, I'll make a decision. Mr. Chairman, I'd love to just 
jump right in then, and I think that the fact that the 
Secretary at really the highest level of the executive branch 
that two Senators here and others from the House have been in 
the Sudan and Chad and Kenya, surrounding countries, that you 
have addressed this so aggressively with the President speaks 
volumes, the size, the magnitude of this humanitarian crisis. 
And I want to commend you for that and really commend this 
body.
    We acted early in this body, earlier than a lot of people, 
not in the Senate and in the Congress, but a lot of people in 
the world expected, when at the end of last month, or 2 months 
ago, in July, we, under the leadership of a lot of people who 
are here at this table and in the House of Representatives 
really unanimously said this is genocide.
    And we said it's genocide before a lot of the individual 
interviews, which I'm sure Senator Corzine participated in, 
which I had the opportunity to participate in about 3 weeks 
ago, with the thousands of refugees, talking to scores 
individually of refugees that several weeks ago, several months 
ago, watched as their wives were raped, as their kids were 
separated, and as their brothers and fathers and sons were 
killed before their eyes, entire villages wiped out.
    It's savagery, it's slaughter, and it's going on, in 
essence, as we speak, but it has been for several months. And 
the light that we should shine upon it, which is the first 
thing we do through action in this body and through the action 
with the House of Representatives in calling this genocide, and 
up to the Secretary's remarks a few minutes ago, demonstrates 
the importance. We have an opportunity, and we all recognize 
that, to reverse what could be one of the greatest humanitarian 
tragedies of all time. And too many times in the past we've 
waited and not acted.
    So I'm very proud of the U.S. Congress, of the Senate, in a 
bipartisan way addressing this issue, and obviously the 
leadership of this particular committee.
    I'm in the Sudan every year, so this isn't a one shot for 
me. I'm there every 8 months to a year. I was there before 
Darfur--people knew where Darfur was, and I spent a lot of time 
in Sudan doing different things. It's a little bit different 
than what the political figures usually do. I'm on the ground, 
and I'm on the ground not as a United States Senator, although 
this time I kind of wore the hat as a Senator going in and 
observing, but working with real people who don't have access 
to health care, and started going in about six, seven months 
after Osama bin Laden left in the mid 1996, 1997.
    Since then, having watched with admiration the way this 
administration has addressed the North-South oversimplified 
conflict under the leadership of the Secretary and Jack 
Danforth, our former colleague, real progress, and we need to 
make absolutely sure that we don't lose sight of that as we go 
forward up through the Darfur crisis.
    We went several weeks ago into Chad where we did talk to 
the refugees, went to a refugee camp called Touloum. There are 
many refugee camps there, probably 20 or 30 at this juncture, 
have anywhere from 10,000 to 20,000 refugees that have come in 
since February of last year. They come in droves. I had the 
opportunity to talk to lots of individuals who are being 
interviewed very appropriately to determine whether or not from 
a legal standpoint this meets the definition of genocide, which 
ties all sorts of legal--has all sorts of legal implications to 
it.
    The story is crystal clear. You go from refugee camp--
refugee to refugee camp within--refugee to refugee within a 
refugee camp, like in Touloum, or to another refugee camp, and 
the story is exactly the same, the way these villages are being 
wiped out, the way that people in uniform come in, airplanes 
fly over, terrorize, scatter, rape, pillage, burn down, 
support, direct support from the janjaweed and the janjaweed 
getting support from the government.
    I also went to Chad, which is a country most everybody in 
here knows, but a lot of people around the world don't know, 
but they are going to know--Chad is the country right west 
where the refugees are--and met with President Deby and went to 
Kenya and met with President Kibaki there. And the story is 
exactly the same. They understand regionally the implications 
of this conflict.
    One dimension that I'd like to just add to the table that I 
wasn't aware of, having talked to scores and scores of the 
refugees who have lost their family members and seen the 
slaughter that's gone on, that really didn't come out as I 
traveled through southern Sudan and met with the leadership, 
all eight Governors of the Sudanese Peoples Liberation Movement 
there, is the potential for regional instability that a crisis 
like this can cause, not just the humanitarian, but regional 
instability with the sort of cleansing that is going on.
    And if you look in Ethiopia, if you look at Eritrea, 
comments are being made about this particular tragedy, and I 
wasn't aware before I was there, but the huge regional 
implications that this tragedy does indeed have. And then we'll 
continue on down, because I know a lot of people have comments 
and question--I want to commend the administration for action 
thus far, but we need to be much, much more aggressive.
    In talking to the Sudanese Peoples Liberation Movement and 
in talking to the leadership in Chad and in Kenya, the 
surrounding countries, it is clear to me that the African Union 
can play a major role. This is an African crisis, and though we 
do--I didn't hear all of your testimony--but provide 80 percent 
of the humanitarian effort, and that is good, it's not enough, 
and it's not going to stop it. So how far we go is what, I 
think, we need to be talking about today at this juncture.
    And second, it is an African problem that Africans want to 
address. The African Union wants to address it. And I'm sure 
we'll get into the details of the 300, the task force. Are they 
being adequately supported? Could there be--and I wrote in a 
Washington Post editorial--a third, a third, a third, have a 
third of the forces that make sure that there's security, not 
just humanitarian aid, but security, a third come from the 
Sudanese Peoples Liberation Movement from the south, and a 
third come from Khartoum, and a third from the rest of the 
African Union is a proposal which I would at least put on the 
table.
    With that, I very much appreciate the chance to recount 
some of my observations, commend the administration, but we've 
got a lot more to do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Leader. We'll go now 
to Senator Corzine and for the full 7 minutes.
    Senator Corzine. Thank you, Mr. Chairman, and Senator 
Sarbanes. And much of what the majority leader said I would 
concur with. I'm extremely pleased that we're having this 
hearing, that this committee has given so much focus to this 
issue. It's absolutely vital that we keep that spotlight on and 
pressure on in conjunction with diplomacy, and I hope 
ultimately some kind of military support for bringing about 
security changes. And I want to thank Senator Brownback for his 
leadership on the genocide effort that we had at the end of the 
August resolution.
    I think words, while they're not the important issue, they 
do have real implications with regard to moving the 
international community, and I think it gives us greater 
leverage in negotiating these U.N. resolutions and hopefully 
has more meaning even with the fear that it might strike in the 
hearts of the governmental officials and those responsible for 
these atrocities that I think are so palpable when you are 
there.
    I must say I've never personally witnessed anything as 
horrifying as the visit to these camps, and quite frankly, we 
had access at ones that were more showcases than what I suspect 
is going on at the other 137 camps. I visited two of them, Al 
Fashir, as you did, Mr. Secretary, and again, I want to 
congratulate you for your leadership on this. The personal 
involvement, I think, has made a huge difference and brought 
great focus to this, but there's a lot more to do.
    We went to another not-showcased camp, Al Junaynah, and the 
difference between one and the other is dramatic, and it only 
makes you wonder what number 137 on the list of camps is like 
with regard to the suffering of children and the abuse of women 
and the general state of conditions of human life. It's 
appalling.
    And I do think that there has been efforts made, 
particularly heroic ones by NGOs and the U.N. with regard to 
humanitarian aid, but I think by standards that most folks 
would accept there's a lot, lot more to do, quality of water, 
quality of sanitation, all of the issues that surround are just 
extremely dangerous.
    But as you have so ably said, the real issue is security. 
We're creating a huge long-run problem if all we're going to do 
is spend a half a billion dollars a year providing humanitarian 
aid without getting to both the security and political 
situation. And we're also, I think, laying the groundwork if we 
don't deal with this on both those conditions, a long-run 
terrorism trap that could be extraordinarily dangerous for the 
world. You put 1.2 million into these kinds of conditions, 
they're not going to be happy over a long period of time. So 
expenditures today on other elements to provide for security 
and political facilitation and resolution to this problem I 
think may be a very wise investment. I hope that we can get to 
that mode.
    I am particularly gratified to hear you talk about support 
for this African Union initiative. I think though this is one 
of those places--and I don't mean this in critical context--
action speaks louder than words on all of our part. One hundred 
and twenty-five monitors, when there are 137 or 154 camps, is 
not a concept that makes any sense. You talked about the 
geographical size. We're really talking about thousands, and 
we're talking about not just troops, but serious logistical 
support, helicopters, C-130s, the kinds of airlift that allows 
that kind of effort to be effective. It also has the secondary 
benefit of helping with some of the distribution issues that 
you talked about, retailing the humanitarian aid.
    But this needs to happen, and it needs to happen sooner 
rather than later in my mind, or we are going to set up a 
situation where that bitterness and retribution are going to, I 
think, reverberate to a much more serious long-term problem.
    I think that this AU issue needs to get quantified, 
dimensioned, and action taken on it. That's why the U.N. 
resolution is important. But even without that, I think that we 
can move along those lines. The Abuja efforts are also terrific 
if they are--if people are held to stay with them. This recess 
notion is incredibly dangerous because it allows for further 
setting in a serious tone the continuation of what appears to 
be a transfer of janjaweed into the police force and militias 
that are claiming to be providing security. The urgency of this 
is real and I appreciate how strongly you have spoken of it.
    I guess my specific question is, are we going to get the 
support of people who we need to work with in the U.N. on so 
many other issues? And I presume that that's China and Pakistan 
in this particular instance, with regard to giving us the 
ability to work with the AU and have the international 
community fund this in anything that approaches a timely 
fashion, month, 2 months, something practical in the context of 
the people who are living their lives in these camps.
    And then the second thing I guess I would ask, are we 
prepared to do those things that will provide for the 
logistical support knowing we're not going to send troops, but 
are we prepared to do those things that actually make the 
African Union forces successful? And if I heard once, I heard 
twice, five times, that without airlift, there is no ability to 
be able to actually deliver on what we're talking about. Where 
do we stand with regard to that?
    Secretary Powell. Senator Corzine, first of all, let me 
thank you for the work that you have been doing on this issue 
and thank you for having taken that trip recently and for your 
work along with Senator Brownback and others on the resolution, 
the genocide resolution, which really gave me another tool to 
work with when Congress passed that resolution.
    On your first question, with respect to support for an AU 
force, I think there is a general feeling among most members of 
the Security Council that the right answer is to get this force 
up and running as quickly as possible. Now, how that translates 
into money, assets, planes, logistic support, I can't answer 
that until we've actually engaged with the Council.
    There are some members of the Council--China and Pakistan--
who have shown some reluctance to going for strong resolutions 
with respect to Sudan. As you know, they abstained on 1556 and 
we'll have to work our way through that. We are ready to 
support it. As I indicated earlier, we have placed millions of 
dollars aside to support it and we may have to come back to the 
Congress or find additional resources from within the accounts 
that I have available to me to support this deployment.
    It may also be that at some point we may have to use our 
own Department of Defense assets in a logistics way to get 
things in. Generally, there is enough contract air around and 
companies that can provide on-the-ground logistics 
infrastructure support and food and water and things of that 
nature that if you have the money, you can provide that. 
Helicopters are more problematic. They generally have to come 
from military organizations that know how to keep these things 
in an austere environment and keep them up and flying. That's 
more difficult to achieve, as you know.
    But I fully agree with you that the AU expansion is what we 
ought to be focusing on in the immediate future, because that 
will give us some semblance of control over the country and 
some semblance of knowing what's going on so that we can hold 
the Sudanese Government to account. And it will be first 
priority for our efforts in the days ahead as we move not only 
through the resolution that we put down yesterday, but in 
dealing with this entire problem.
    Senator Corzine. Have you thought, and do you have a 
dimension on what you think that African Union force should 
look like?
    Secretary Powell. Not yet. They are talking in terms of 
something from 2,000 to 5,000. The Rwandans have been 
forthcoming, the Nigerians have been forthcoming. We don't have 
what in my old days in the army I would have called an 
operational concept. In other words, fine, I've got 5,000 
troops or 2,000 troops, how are they going to be deployed, 
where are they going to be deployed, what's their mission, are 
they monitoring, are they protecting monitors, or are they 
prepared to intercede when they see something bad happening?
    The initial efforts of the monitoring group that's there 
now, when they have seen something, they have taken note of it 
and reported it back, which gives us leverage to go back to the 
Sudanese Government and say, stop telling us you're not doing 
this when we can see you are doing it, and here's the evidence. 
That's pressure, and they can't ignore that kind of calling 
them to account for promises they have made.
    So what we have to do is work with the AU, and we're 
prepared to do this, with diplomatic folks as well as military 
folks. We have some military personnel with the AU monitoring 
group now who are providing very solid advice to come up with 
an operational concept as to what these troops should actually 
do.
    [The prepared statement of Senator Corzine follows:]

              Prepared Statement of Senator Jon S. Corzine

    First, I would like to thank our chairman for holding this critical 
hearing. Having been in Sudan and visited Darfur last week, I can tell 
you that this is an urgent crisis. Just as the U.S. Government must 
mobilize the international community, we in the Congress cannot allow 
our attention to drift. I am pleased that Secretary Powell is 
testifying today. I also ask, Mr. Chairman, that we hold another 
hearing in the very near future at which private witnesses--including 
representatives of the NGO community who have done so much to bring 
this crisis to the world's attention--be permitted to testify.
    Mr. Secretary, I want to commend you for your personal involvement 
in Darfur. Your visit to Darfur was immensely important. I am also 
gratified the administration has decided to call the situation in 
Darfur ``genocide,'' and together with the unanimously passed 
resolution I sponsored with Senator Brownback and a similar 
overwhelmingly passed resolution in the House, I applaud the fact that 
we are now speaking with one voice. Now we have obligations under the 
Genocide Treaty that must be addressed. I believe there is much more 
that we should be doing, not just to alleviate the current humanitarian 
crisis but to address the currently unresolved security problem and to 
bring about an eventual political settlement. This includes appointing 
a Special Envoy, to confront head-on the crisis in Darfur and to ensure 
that other important issues in Sudan--including the stalled North-South 
agreement--receive consistent, high-level attention.
    Allow me to make several observations from my visit. First, the 
humanitarian workers whom we met and our own USAID team in Sudan are 
doing remarkable work under unbelievably difficult circumstances. They 
deserve our thanks and our fullest support. Second, if there was one 
message that came through from our discussions with IDPs, it is that 
the security situation has not improved. They are intimidated within 
the camps and are afraid to leave them or return to their villages. I 
asked one man how long he expected to be displaced from his home. He 
answered, ``30 years.'' Third, the camps are growing, not shrinking. 
Newly arrived IDPs do not yet have shelter, the food pipeline is 
delayed, and the humanitarian organizations are struggling to keep up. 
And fourth, there is no indication that the Government of Sudan is 
willing to even recognize the problem, much less come to a common 
understanding of how to resolve it. Foreign Minister Ismail's recent 
statement that only 5,000 people have died in Darfur is outrageous and 
indicative of the problem.
    We must keep the pressure on the Government of Sudan. The UN has 
concluded that Khartoum has failed to live up to its obligations under 
Security Council Resolution 1556. We simply cannot allow this 
intransigence to stand. We should put maximum effort behind passing the 
strongest possible UN Security Council resolution so that the 
Government of Sudan is finally held accountable.
    As bad as the situation in Darfur is, a real opportunity exists to 
promote security through a vastly expanded African Union force. The 
cease fire monitoring teams, which I met, are doing critically 
important work in investigating reported violations. And their 
composition--representatives of the Government of Khartoum and the 
rebels, AU soldiers, and representatives from Chad and the U.S. or EU--
is itself an important symbolic step. But these teams need support, 
including air lift, vehicles, communications and other equipment, and 
housing. They need help setting up permanent bases in the six parts of 
the Darfur they have identified. Their reports should be taken 
seriously and made widely available, and their recommendations should 
be heeded. And, most of all, their numbers should be dramatically 
increased.
    The numbers of ``protection forces,'' of which there are currently 
300 in Darfur, should also be expanded. The United States and the 
international community should throw its fullest support behind 
Nigerian President Obasanjo's call for at least 3,000 troops. Their 
mission should be expanded to include protection of civilians. The 
Security Council resolution currently being considered should be 
explicit: sanctions will be applied if the Sudanese government fails to 
allow in this expanded force and accept its broader mandate.
    The United States should also provide more assistance to the AU's 
mission in Darfur. Estimates of the costs of an expanded mission with 
adequate logistical support are $228 million. Thus far, the 
administration has requested one tenth this amount, none of which is 
new funding. We need to provide supplemental funding to cover the AU's 
mission. With humanitarian costs accounting for $500 million a year, 
with a long-term IDP problem creating more hatred and war, we can 
afford to provide $50-$100 million in support of an AU force that has 
the potential to bring security and create conditions for a political 
settlement.
    The African Union, whose leadership I met in Addis Ababa, Ethiopia, 
stands at a crossroads. Not only for the sake of Darfur, but for the 
sake of all Africa, we must increase our assistance to this critical 
organization. If we merely support an expansion of the AU's force in 
Darfur without providing the necessary assistance, we risk setting the 
AU up for failure. This would be tragic. We must contribute more to the 
AU, promote it as an institution, encourage its plans to contribute to 
peace and security throughout the continent, and appoint an ambassador 
to the AU. Darfur has presented a real test, not only for the AU, but 
also for us. The question remains: when visionary African leaders step 
forward to confront Africa's gravest problems, will we do everything in 
our power to help?
    Finally, we will not be able to resolve the crisis in Darfur 
without a real political solution. The African Union has stepped in to 
mediate talks between Khartoum and the rebels. These, and future 
negotiations, should be supported by the U.S. Otherwise, we can expect 
years of violence and suffering, which no amount of humanitarian 
assistance can resolve.

    The Chairman. Thank you very much, Senator Corzine.
    I know Senator Hagel has also recently visited Africa. I 
call now on Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Secretary, thank you for appearing this morning and 
your leadership and focus on this issue.
    The chairman noted that I recently was in Africa. As you 
know, I was there a couple weeks ago. I was in West Central 
Africa, primarily focused on the five countries that represent 
the Gulf of Guinea area of West Central Africa. I happened to 
be in Nigeria the day that the Nigerian President Obasanjo 
convened the African Union conference on the Sudan, and spent 
about an hour with him on this issue.
    A couple of observations, and then I would like to ask some 
questions. One, I think there is some good news overall for the 
long term on the African Continent in that true organization 
such as the African Union, ECOWAS, you noted what they did, 
role they played, continue to play in Liberia, Sierra Leone. 
There is a recognition, I suspect a new recognition, not by 
all, but by a number of African leaders on the African 
Continent that these problems, as the majority leader noted, 
are African problems. Yes, they affect us all, and we have some 
responsibility to help deal with those problems, but bringing 
together these coalitions of common interests and focus through 
organizations like the African Union and Gulf of Guinea 
Commission, ECOWAS, others, we're starting to see a 
consolidation of purpose, of focus, of leadership that we've 
never seen before.
    It's interesting, the Middle East has had nothing like 
this, and that's part of our problem, as you know so well. But 
I see that as some good news, and we should not allow that to 
get by us in the wider angle view of what's happening there.
    Now, with that noted and what Senator Corzine was talking 
to you about, assistance, certainly lift capability, and when I 
was in Angola meeting with the head of the Government of 
Angola, they have, as you know, some lift capability. And it's 
like everything, it's a harnessing of those resources to bring 
them together to see what we can do to focus more and more on 
using those capabilities in a relevant, real, and timely way.
    So I won't spend my time on that, but I would just echo 
what Senator Corzine said. It's the same thing I heard in my 
visits with the leaders of these countries. And I think we're 
getting there and America has a tremendous role to play and 
they want us to play a role in that. We have to be careful with 
that role, as you know, because our purpose is too easily and 
often questioned and our motivations are questioned.
    I want to go to the United Nations and your comments about 
sanctions. Can you define for this committee where we are with 
some of the major players, the 15-member Security Council now, 
primarily China, Pakistan, Angola, on the idea of sanctions, 
where they are with the tough U.N. resolutions, how far they're 
prepared to go? And if they're not prepared to go very far, why 
not?
    Secretary Powell. I can't give you a solid answer, Senator. 
We tabled or put the resolution out for comment yesterday 
afternoon and I do not yet have reports back from Ambassador 
Danforth on the reaction. But I will say that there--I think 
there is--there's an overall reluctance to impose severe 
sanctions against Sudan at the moment because people are unsure 
as to whether they would have the desired effect, or would they 
enhance the position of the hard-liners, who will say no matter 
what you do, the international community led by the United 
States is coming after us. So I think we've got a lot of work 
to do before we could get the kind of sanctions that would 
actually change behavior of the authorities in Khartoum.
    Keep in mind that the United States has sanctions on. There 
isn't much more we could do in the way of sanctions 
unilaterally that would affect the Sudanese very much. There's 
not much left in that closet. But getting the Security Council 
to act is going to be a challenge. Nevertheless, in the draft 
resolution that we put before the Council members last evening, 
we call for another 30-day period of looking at this, but any 
time between now and then if we think it's possible for the 
Council to act, we can ask the Council to act.
    And we threw into the equation the possibility of oil 
sanctions, because that really is the strong one. The European 
Union last week in some statements they made seemed to be 
inclined more toward the necessity for sanctions, even if it 
involves sanctions on oil. China and Pakistan have not been 
forthcoming in that regard because of interests that they have 
in Sudan that are not necessarily coincident with the interests 
that we are trying to pursue at the moment.
    May I say another word, Senator?
    Senator Hagel. Yes.
    Secretary Powell. You said it really is so accurate to say 
that Africa really wants to start taking care of African 
problems, and the leadership that has been provided by a number 
of African leaders, whether it's President Obasanjo, President 
Kanari, President--so many others are showing this kind of 
leadership. I saw it in the Liberian situation last year where 
ECOWAS was in the lead, AU was in the lead, and at the right 
moment we put just enough American military presence in to 
stiffen up everybody and get the President out of the country 
and off into exile, Charles Taylor, and the situation 
stabilized. And it's not fixed, but it's stabilized and it's 
improving.
    This gives me a chance to make a plug to you, gentlemen and 
ladies, for the President's initiative to enhance the ability 
of African countries to deploy peacekeepers by training them 
when there isn't a crisis, giving them the equipment they need, 
the experience they need, the training they need so that when a 
crisis comes along and you create a coalition of the willing, 
you have a competent coalition of the willing.
    We saw that in Liberia last year when we started to put 
together this force with ECOWAS. People were coming to me 
saying, do not send the Nigerians back into Liberia. It was a 
very bad experience in the early 1990s. Well, they have been 
trained and professionalized with a lot of help from us in the 
late 1990s and they went in, they did an absolutely superb job. 
So we have to invest before these crises come along.
    I'll make one other statement if I can take advantage of 
your time, Mr. Hagel. There is another crisis that is 
descending upon Africa--locusts. There is a locust infestation 
that is now spreading across Northwest Africa and is beginning 
to spread due east out of Mauritania, and you'll see more and 
more about and read more about it in your newspapers and 
television, because this will put an added burden on the 
international community for food support and to help people who 
are sitting there watching their farms eaten alive. And this 
generation of locusts is regenerating itself exponentially 
almost every day.
    Senator Hagel. Mr. Secretary, thank you. If I could ask the 
chairman for his indulgence to--since you did use some of my 
time, Mr. Secretary----
    Secretary Powell. Sorry, Chuck.
    Senator Hagel [continuing]. For your narrow parochial 
interests, which I'm glad you mentioned, Mr. Secretary, because 
they are important and I, at least this United States Senator 
completely supports what this agenda is about. But if I could 
ask just one brief question, would you explain for the 
committee, for those watching, briefly, succinctly, as you 
always do, what is behind this genocide? What is the purpose? 
What's the reason? I'm not sure we, the American public, has 
ever been told or explained to, what is this all about?
    Thank you, Mr. Chairman.
    Secretary Powell. For decades there has been tension 
between the different parties in the western part of the Sudan, 
in the Darfur region between those who grow crops and those who 
are herders, between the Arab population and then the basically 
African population. As the Lake Naivasha Accords went forward 
and it looked like the North-South agreement was coming 
together, tension increased with respect to how this would 
affect the western part of the country and would they be left 
out of the benefits of such an agreement.
    At the same time, you had new oil wells coming into the 
country, so these tensions erupted in a rebellion, in a civil 
war between the SLA, SLM, and the other organizations, JEM, and 
the government. And the fighting broke out in earnest in the 
beginning of 2003 with attacks by the rebels against the 
government. The government responded, and not having, at least 
as they saw it, enough capacity within their own armed forces 
and police forces to deal with this in a sensible way using 
force of the state, legal force of the state, they resorted to 
these militias and they began arming these janjaweed, which 
essentially mean guys on horseback and camel, who go out and 
destroy these villages and run the people off, kill the people, 
rape the people, steal their possessions.
    What is so terrible about it is that you can see that these 
are not just individuals who ride in on horses and camels. 
They're part of a coordinated attack as we would say in the 
infantry where they're supported by gun ships flown by the 
government, military forces giving them backup, and they go in 
and do the dirty work. And so the government launched this 
effort, launched these janjaweed, and now the government has to 
end it, bring it under control.
    It is not a simple matter for the government to do this, 
having launched it, because they are still facing, as they see 
it, a rebellion. But nevertheless, they have to face this and 
they have to bring it under control, and to think that there 
will be some outside force that could come in and undertake 
military action against the janjaweed as if they're a military 
organization waiting to be defeated is naive in my judgment.
    So we have to get the Sudanese Government to do it, and I 
think if you could get several thousand African Union monitors 
and protection forces for the monitors, and as the Rwandans 
have said, if we go in, we are not going to just look the other 
way if we see something terrible happening in a particular 
village.
    And so I think if you can get that force in as quickly as 
possible, as Senator Corzine suggested, then I think you can 
have some ability to control the situation, monitor it well, 
and put additional pressure on the government, and essentially 
assist the government in bringing this situation under control.
    Senator Corzine talked about some, some of the camps that 
are nowhere near being show camps, but in addition to camps, 
there are lots of other people out there that we don't know 
where they are. They are essentially foraging in this terrible 
place and they're living in villages that cannot really sustain 
them any longer, are at risk, and that gives us even more 
incentive to move forward quickly.
    My experience though is that with these kinds of forces 
coming from the African Union, it takes time. It took us almost 
2 months to get the Nigerian 150 troops in, even though 
President Obasanjo hoped he could do it rather quickly. By the 
time you kit them out, as my British colleagues would say, as 
you kit them out, get them ready to go, and then make sure that 
when they get there, they have food, they have water, they have 
the wherewithal, they have communications, they have 
transportation. It is not like deploying the 82nd Airborne with 
the full logistics kit that comes with an American unit. It 
takes time, it takes resources, it takes money.
    And just as Senator Corzine, we do have some money, but 
we're going to need a lot more, Senator.
    The Chairman. Thank you very much, Senator Hagel.
    I just wanted to query that point, Secretary Powell, 
because it pertains to our responsibility in the Congress. In 
the authorization and appropriation bills now, is there 
adequate money for both the humanitarian needs and the training 
of the African Union forces that you've pointed out are going 
to be critical?
    Secretary Powell. I have money remaining in this fiscal 
year 2004. The Congress was very generous. We started out 
asking for $94 million for 2004 for the Sudan and by the time 
we got through with supplementals, money given to us out of the 
Defense supplemental, we are close to $500 million in terms of 
all of the money, close to $600 million frankly, a little over 
$600 million of money available for the Sudan, to include 
Darfur but throughout the Sudan.
    But as we look at what the needs of this African Union 
force are, and when they become better known, the money that I 
have already applied to that in the tens of millions will not 
be enough, so we will have to come back to the Congress. I 
cannot give you an estimate now of what it will take.
    For 2005, we have requested just about $600 million, $594 
million or thereabouts for 2005 funding throughout the Sudan.
    The Chairman. Well, please come back to us quickly on the 
training money.
    Secretary Powell. Yes. That is a different program 
altogether.
    The Chairman. I appreciate that. We have the majority 
leader here, and so he's heard this conversation, too. He has 
heard the importance of these troops being there. You've 
emphasized the need to pay for it.
    Secretary Powell. Right.
    The Chairman. Senator Biden.
    Senator Biden. I arrived late. I will yield to the Senator 
from Connecticut and wait my turn after the next Republican.
    The Chairman. Very well. Senator Dodd.
    Senator Dodd. That's very generous. Thank you.
    And welcome, majority leader. It's good to have you on the 
committee. Mr. Secretary, thank you very much for your presence 
here today.
    And let me--Mr. Chairman, I think you framed the case 
tremendously well for all of us in your opening comments. I 
couldn't have said it any better than the way you phrased it 
all and placed it here that obviously this hearing is very 
important, the visits of our colleagues, Senator Corzine, the 
consistent visits of Senator Frist, the majority leader, over 
the years I think are tremendously important, and the efforts 
of Senator Brownback and others, which we all joined in the 
resolutions. And thank you, Mr. Secretary, for recognizing the 
value of having a resolution adopted by the Congress expressing 
its concerns, deep concerns about this issue.
    And there point out what you've pointed out, Mr. Secretary, 
and others have, obviously it was 10 years ago that we saw the 
tragedies of Rwanda with 800,000 people slaughtered. And with 
all due respect to all of us here, we didn't do enough about it 
at the time and I think people recognize that.
    I appreciate the efforts being made, but would like to just 
address three quick questions, if I may, to you. One is, I'm 
not--I haven't forgotten that the Sudanese, of course, harbored 
Osama bin Laden. Now, they've changed their views considerably 
with regard to international terrorism, and I suspect that had 
something to do with the fact that we just didn't talk about 
removing the Taliban from Afghanistan, we acted on it, and it 
was in that context, in that timeframe that the Sudanese began 
to have a different view with regard to our efforts in that 
regard.
    And I'm concerned, as the chairman expressed, that while 
these hearings are tremendously important and the resolutions 
are important, that action be taken. And I'm wondering if you 
might comment specifically on a couple of suggestions. One is, 
while I appreciate immensely the testimony you've given here 
this morning in which you identify this issue at Darfur as 
genocide, I note that the resolution that we're submitting 
today does not include the word genocide as I understand it. Is 
that correct?
    Secretary Powell. The resolution that is before the United 
Nations----
    Senator Dodd. That we have drafted and sent forward does 
not include genocide in the language of the resolution.
    Secretary Powell. It asks the United Nations to launch an 
international commission to make a judgment on behalf of the 
United Nations as to whether or not it constitutes genocide or 
not. I talked to Kofi Annan 2 days ago and told him that that 
was the conclusion we had reached as a government and I would 
be presenting that conclusion to you.
    And in the resolution that we are putting forward, it 
asks--I'm looking for the specific paragraph--one of the 
operating paragraphs, request that the Secretary General 
establish as soon as possible an international commission of 
inquiry in order immediately to investigate all violations to 
determine whether acts of genocide have occurred. So we have 
put it in the resolution that way.
    Senator Dodd. Because genocide obviously is not a local 
crime. It's a crime against humanity, an international crime. 
Well, that's encouraging.
    Second, give us your views if you would about the--and I 
realize this is done rarely, but it seems to me this situation 
would warrant certainly a serious consideration of invoking the 
Chapter 7, establishing the Chapter 7 actions under the U.N. 
Security Council, and that is establishing a real peacekeeping 
mission that would not only react to things they observed--you 
noted a minute ago the Rwandans had suggested that if they're 
involved here, they want to do more than just report on acts of 
violence, but would rather act--and obviously Chapter 7 allows 
the peacekeeping force to in fact intervene very directly.
    Give us some appraisal of how likely it is you're think 
we're apt to get a Chapter 7 result here, and what timeframe is 
that apt to occur?
    Secretary Powell. The specific operative paragraphs under 
the draft resolution are under Chapter 7, but the likelihood of 
getting a resolution that essentially says, let's have an 
intervention force, the likelihood of getting that is, I think, 
pretty low. And even if you could get such a resolution, I'm 
not sure who would come forward to provide such forces.
    And so that's why the focus of our efforts and the focus on 
the resolution is the building up and expansion of the AU force 
as quickly as possible. That's what we're pushing. That's our 
No. 1 priority in this resolution and the No. 1 diplomatic 
effort we're undertaking is to get that AU force up and 
running, make sure we have agreement with the Sudanese 
Government and they don't object to this, and provide the 
wherewithal, as Senator Corzine was saying, to do it as quickly 
as we can.
    Senator Dodd. What about moving on the international court 
here and against individuals or organizations within Sudan that 
have been directly engaged in these genocidal acts?
    Secretary Powell. I really can't speak to that because at 
least as far as our work is concerned at this point, we haven't 
gotten to the point of identifying any particular individuals, 
and we are not in the position to say to the international 
court what it might do. I don't know whether it is following 
this closely or not. As you know, we are not party to that 
court.
    Senator Dodd. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dodd.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary.
    In the mid 1980s, the United States labeled Sudan ``a 
viper's nest of terrorism.'' But on May 18 of this year, the 
State Department removed the Government of Sudan from the list 
of countries considered non-cooperative in the war against 
terrorism. And the State Department said at the time, ``Sudan 
has taken a number of steps in cooperation against terrorism 
over the last few years.'' And now do you think this 
designation of genocide today, and also the threat of 
sanctions, are going to undermine the cooperation that was 
expressed on May 18?
    Secretary Powell. It's an open question, Senator, and it's 
a question that I considered carefully over the weekend as I 
looked at the report that I had from my group and as I looked 
at all the other information I had. And I came to the 
conclusion that, whether it did or did not undermine it, the 
facts led to no other conclusion, and, therefore, I went on the 
basis of the facts. I think it was the right choice to make, 
and the President agrees with the choice that I recommended to 
him.
    We have seen improvement, in the 3\1/2\ years of this 
administration, in the Sudan on terrorism. They've cooperated 
in a number of areas. They have eliminated some organizations 
who were supporting terrorist activities from their presence in 
Khartoum. And after the Lake Naivasha--Naivasha Accords were 
coming along, we hoped to see even greater cooperation. We want 
to have a normal relationship with Sudan in due course, and we 
still can get there. And the impediment is this problem in 
Darfur.
    So I hope that the Sudanese Government, when they digest 
what they're seeing here on television today, and when they 
digest what the U.N. is going to do, I hope, in the not-too-
distant future, will realize that this is not the time to start 
going backward, but the time to go forward. And I hope it will 
not undercut the progress we have seen. It is a still a state 
sponsor, but it is no longer a non-cooperating country, the way 
it had been in the past.
    Senator Chafee. A number of us have talked here about the 
need for the African Union to participate. What has President 
Mubarak been saying on this subject?
    Secretary Powell. President Mubarak has been in touch with 
the Sudanese leadership and expressed his concern. The Arab 
League has met on this, in early August, and expressed its 
concern. I haven't seen a great deal of resources flow from 
that expression of concern, or any indication that they'd be 
willing to participate in monitoring forces. It's principally 
been the African Union, as opposed to the Arab League, that has 
stepped forward.
    Senator Chafee. Of course, this is a country to his south. 
President Mubarak must have a very personal interest in what 
occurs there.
    Secretary Powell. Yes.
    Senator Chafee. From what I've read, he's said, ``Let the 
Sudanese Government have more time.'' Has anything changed 
since I last heard that?
    Secretary Powell. No.
    Senator Chafee. And were we listening to them?
    Secretary Powell. There is a feeling in many countries, 
particularly in the Arab and Muslim world, that the Sudanese 
have to be given time to respond to the pressure put upon it by 
the international community. That's great, as long as you're 
not a refugee or an IDP who doesn't have time, because you want 
to know where the next meal is coming from, you want to know 
when you can get home to put in a crop for next year, you want 
to know when you can reconstitute your family----
    Senator Chafee. Well, that----
    Secretary Powell [continuing]. You want to go home.
    Senator Chafee [continuing]. Begs the question, then, Why 
is he saying that?
    Secretary Powell. I don't know that I can speak for him. 
It's just that there is a view that we should be careful about 
exerting too much pressure on Sudan, because--the Sudanese 
Government--because of the internal political situation in the 
country, and that we could well bring into power people who are 
even less interested in finding a proper solution to this 
problem.
    Senator Chafee. How high is the risk of that? There's an 
article today from members of the Sudanese legislature saying 
that this is--if we designate, today, genocide on Sudan, that 
it's going to undermine the peace talks, and that it's going to 
disintegrate into a Somalia-style chaos. What are the risks of 
this?
    Secretary Powell. There is a risk. I can't put a number on 
it. But it's something that we've considered over the last few 
weeks. It's also why I took time to get a solid basis upon 
which to rest our determination, so that when, I think, the 
international community takes a look at what I have said today 
and the judgment that the administration has made, they will 
see that it rests on facts, not just the--you know, we're 
annoyed or we're mad or we want to do something. It rests on a 
solid basis of facts. And I hope that, therefore, it will cause 
the international community to put more pressure on the 
Sudanese. And I hope the Sudanese say, this is what the world 
is seeing. And you can't say it isn't happening; it is 
happening. You can't say you've fixed it when you haven't fixed 
it. You can't say that you're not supporting the jangaweed when 
the African Union monitors can see the airplanes in the air, 
firing at these villages and reporting it. And so I hope that, 
notwithstanding what the legislature has said, the Sudanese 
Government and the Sudanese legislature will reflect on what I 
have said here today and what I hope the international 
community will say in the next resolution.
    We are not ``after'' Sudan. We are not trying to punish the 
Sudanese, people of the Sudanese Government. We're trying to 
save lives. And in that, we have a mutual interest with the 
Sudanese Government, if they are determined, as we are, that 
their people should not be put at this kind of risk. That's 
what they say they are. They say they are determined that their 
people should not be put at this kind of a risk. Well, then, 
they've got to do something about it. And we can't look the 
other way because it might cause political difficulties in the 
legislature of the Sudanese Government.
    Senator Chafee. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Chafee.
    Senator Biden.
    Senator Biden. Mr. Secretary, thank you for your statement 
today, in calling this situation for what it is. No matter what 
the Sudanese Government would or wouldn't do, we have an 
obligation to do so, at a minimum, and I compliment you for 
being so straightforward.
    I'd like to ask unanimous consent that a much longer 
opening statement be placed in the record as if read.
    The Chairman. It will be placed in the record in full.
    Senator Biden. Thank you.
    I'd like to focus on two things, if I may, Mr. Secretary. I 
think the American people and a lot of our colleagues, as well, 
are confused about how much of what we're attempting to do to 
save thousands, and maybe tens of thousands of lives over time, 
relates to the need to have the approval of Khartoum.
    Right now, the AU is in there in limited numbers as an 
observer with no mandate and no authority to protect civilians, 
but to observe and report. And, as I understand this beefed-up 
effort that we are looking for through and with the African 
Union observer's mission, that we have committed to play some 
part in preparing to have the capacity to do a better job--that 
it still doesn't envision the possibility of this military 
force protecting civilians, and that if we were to go to that 
step--if the world was to go to that step, if we were to push 
that step--it would require Khartoum's sign-off. Is that, 
factually, the situation?
    Secretary Powell. Sudan is a sovereign country with a 
government, and what they have agreed to, and what they have 
cooperated in, is the deployment of a monitoring group, and 
protection force for the monitoring group so the monitoring 
group can do its work. Now there's an effort to expand that 
significantly. The Sudanese have said, you know, you can't just 
come into our country as a peacekeeping force and as an 
intervention force totally indifferent to the sovereignty of 
the nation and the sovereignty of the government. And what the 
African Union is doing now is working with the Government of 
Sudan and working with others to determine how large a group 
should go in, and what should they be called, and what will 
their mission be? Right now, the----
    Senator Biden. But the bottom line is, please--I don't mean 
to interrupt----
    Secretary Powell. The bottom line is, it is going in----
    Senator Biden [continuing]. Is that the Khartoum has to 
sign-off.
    Secretary Powell. It is--yes, Khartoum has to cooperate 
with the effort.
    Senator Biden. Right.
    Secretary Powell. Now, Khartoum has been uncooperative in 
earlier episodes, but were brought around to cooperation 
because they found that it was in their interest to cooperate. 
And that's essentially the process that we are in and the AU is 
in.
    Senator Biden. It's not precisely analogous, but we went 
through a similar thing with Milosevic and Kosovo, not Bosnia, 
and this notion of sovereignty, that we could not--not 
withstanding the fact that he was fully engaging in genocide, 
we could not move in Kosovo without--this is early on--without 
the consent, in effect, of the Government of Belgrade. This is 
different, I acknowledge.
    But the fundamental concern I have here is, as we and our 
friends in the Security Council and our European friends--work 
out the new rules of the road of the 21st century, it seems to 
me--and I'm not asking you to respond, but it's something I'd 
like to have some time with you about at sometime--there seems 
to me a desperate need for us to come up with new rules of the 
road, internationally, to have some legitimate recognition that 
there's other circumstances in which a nation forfeits its 
sovereignty, short of going to war. I'd respectfully suggest we 
should consider the notion--I don't mean what our specific 
action would be, what precise action we would take--but it 
seems to me that, as a practical matter, and as a matter of 
international law, when a nation engages in genocide within 
their borders, cooperates with it, they forfeit their 
sovereignty. I've found it counterintuitive to suggest, as the 
first Bush administration did and some in the Clinton 
administration, that we could not intervene in Kosovo because 
of the sovereignty of Serbia, notwithstanding the fact we had a 
genocidal SOB who was clearly, clearly, clearly engaging in 
genocide.
    And I thought the Secretary General's statements over the 
last year and a half, we're, sort of, beginning to work out new 
rules of the road. For example, we made it clear that if, in 
fact, a nation-state that's sovereign harbors terrorists, and 
those terrorists clearly, in fact, inflict damage upon us, and 
there's no action taken by that government to deal with them, 
they forfeit their sovereignty.
    I'd respectfully suggest we should be debating whether or 
not Khartoum has forfeited their sovereignty under the 
traditional 20th century notion of what outside interests and 
countries are able to do within their territory, based on this 
doctrine of sovereignty.
    That's way beyond this, I know, but it leads me to this 
question. I just want to know--and it's no surprise to you 
where I come from on this--one of the suggestions and maybe 
this has such relevance to me, because I was so invested in the 
Balkans--the U.N.--Secretary General's special representative's 
recommendation reminded me slightly of the plan that the Brits 
came up with for Bosnia and the cantonization notion they had--
when he suggested establishing safe areas for civilians who 
have been driven from their homes.
    Now, my question is, if that ends up being part of the 
total package here--that is, the AU goes in with the permission 
of Khartoum, in larger numbers, slightly expanded mandate, and 
safe--I think the phrase they used was ``safe areas'' for 
civilians are set up--and this is genuinely a question--doesn't 
that plan threaten to consolidate the ethnic cleansing?
    Secretary Powell. Yes.
    Senator Biden. And do you have a view on that plan?
    Secretary Powell. We have concerns about the concept that's 
being used that came out of the Darfur Action Plan, as it's 
called.
    Senator Biden. Yes.
    Secretary Powell. The safe areas. Because it essentially 
says that once you're outside the boundary of a safe area, 
you're not safe, and it's a free-fire zone. So we have concept 
about the practicality--have concerns about the practicality of 
the concept.
    Senator Biden. Have you told--I don't mean you, 
personally--have we told the U.N. that this plan might be 
unacceptable to the United States?
    Secretary Powell. We have expressed our concerns about this 
concept. I haven't talked directly to Secretary General Annan 
about it.
    Senator Biden. And, very obviously, Mr. Secretary, I have 
no doubt where your heart is in this. I don't have the 
slightest doubt where your heart is. And you've made it clear 
where you're head is, as well. I'm not asking you to answer 
this question, but the question I'm so tempted to have 
answered--I'd love to get you aside and say, OK, you're still 
Chairman of the Joint Chiefs of Staff, and Lugar is President--
or Bush is President, and he says to you, what could I do--
don't give me this sovereignty crap--what could I do that could 
save, in the next two, three, five, seven, 10 weeks, thousands 
of lives, while we are beefing up the AU? What could I do that 
would not lock me in so that I am--I'm already overextended--
would it matter, general, if you were able to commit to me, 
rapidly, 3,000 forces to go in and stabilize the area now while 
this is taking place?''
    What would--and, again, I'm not asking you; I just want you 
to know that I think a lot of people are asking the same 
question I'm asking, in my own head--what--is there anything 
that comes off of what Senator Corzine, I thought--I caught the 
tail-end of his comments--you know, no one--nobody wants us to 
get, quote, ``bogged down'' in another place. We haven't 
finished Afghanistan, we haven't finished Iraq, we have Korea 
looming--not necessarily war, but, Korea's a giant problem, 
nuclear-threshold questions in Iran, the Middle East. I got it 
all. But I wonder--I would be asking the question of you, or 
General Myers, What could I do if it's going to take me a month 
or two with the international community to put the AU in a 
position they could do more--what could we do, like we did--
like we did in Liberia, like we did in a few other places where 
we went in, and we were out--we made no long-term commitment--
and stabilized the situation.
    You know, I realize it's not above your paygrade or 
competence; it may be beyond your willingness or brief to speak 
to that, but I hope someone has asked that question and has 
gotten an answer so the man sitting behind that desk knows what 
options are available. And if you conclude that sovereignty is 
the sole relevant issue, then, you know, this is all moot.
    But, anyway, I thank you for what you've done. If you want 
to respond, I'd welcome it, but I will not ask you to. You 
don't have to.
    Secretary Powell. Let me say a word on the first part of 
your presentation, Senator, and that is that sovereignty may 
not have the same meaning in the 21st century that it might 
have had in the past or it had back in the days of Kosovo. But 
if--sovereignty isn't surrendered, usually. You've got to go 
take it away.
    Senator Biden. Right.
    Secretary Powell. And so one has to be very careful. You've 
said--you presented your case, but then you said, ``I won't 
tell you what action we're going to take.'' But you can't stop 
there, because if you're----
    Senator Biden. Well----
    Secretary Powell [continuing]. You've got to----
    Senator Biden. Well, actually----
    Secretary Powell [continuing]. If you--if some----
    Senator Biden. With all due respect, sir----
    Secretary Powell. Yes.
    Senator Biden [continuing]. So I'm not misunderstood----
    Secretary Powell. Yes.
    Senator Biden [continuing]. You can stop there. We've made 
it really clear that we don't like what North Korea is doing. 
We've made it very clear they're a grave danger to us. We've 
made it very clear they are not doing--they are--we are in 
jeopardy as a consequence of them; otherwise, we wouldn't be 
talking about spending hundreds of billions of dollars on a 
star-wars program. We made it clear we think they are 
potentially a mortal enemy, and we're not doing a damn thing 
about threatening to use force. I'm not suggesting we should.
    So you can make a judgment, like the President did, early 
on, and say there is--what was it?--an ``axis of evil,'' and 
these are evil states, and then conclude that you are not 
prepared, at the moment, given the circumstances, to be able to 
do something.
    And the only thing I'm saying is, the first step always is, 
what is the declaration, relative to the argument that ``You 
cannot cross my border because I'm a sovereign country''? And I 
would just--that's all I'm suggesting.
    So you can make that judgment, ``You forfeited your 
sovereignty, we ain't doing something now, but we're looking, 
the world's looking.''
    So I just want to make it clear. I'm not--I do not believe, 
and I think our present actions demonstrate, that we can make 
judgments about how evil, how dangerous, how threatening a 
nation is to us, and not conclude we should use force.
    [The prepared statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for holding this extremely timely and 
important hearing.
    It has been three months since our last hearing on the crisis in 
Darfur. Since then, there has been some progress, but the situation 
remains dire. The United States and the international community must 
take stronger measures to prevent an even greater humanitarian tragedy 
than has already unfolded.
    On July 30, the United Nations Security Council passed resolution 
1556, which gave Khartoum 30 days to disarm the janjaweed, improve 
security for internally displaced persons, bring human rights 
perpetrators to justice, and remove impediments to humanitarian 
access--or risk the imposition of sanctions.
    In recent weeks, the Sudanese Government has removed a number of 
bureaucratic impediments to aid delivery. Food is being airdropped into 
the region. Aid flows to the camps have improved, as has access by 
humanitarian workers.
    Khartoum also has engaged in a serious dialog with the Sudanese 
Liberation Army and the Justice and Equality Movement in Abuja under 
the auspices of the African Union.
    The progress is real. But it is far outweighed by the peril in 
Darfur. Hundreds of thousands of lives remain on the line.
    On September 2, the Secretary General's Special Representative to 
Sudan, Jan Pronk, reported to the Security Council that Khartoum has 
neither disarmed the janjaweed, nor provided effective security for the 
approximately 1,200,000 internally displaced people in Darfur.
    Ambassador Danforth has stated that there are confirmed reports 
that the government participated in attacks on civilians in Darfur as 
recently as August 26.
    And although assistance is reaching more people, humanitarian 
workers are discovering that more people need aid than they originally 
estimated.
    The bottom line is that the Government of Sudan is not taking the 
actions demanded of it. And so the question before us is 
straightforward: what are we and our allies in the international 
community prepared to do to change the situation in Darfur?
    Will the Security Council act to impose sanctions under article 41 
of the UN charter as threatened in 1556?
    Are we and our international partners prepared to push for a 
Chapter 7 peacekeeping force with a mandate that includes protection of 
civilians?
    Will other members of the Security Council support strong action--
or will they undercut it?
    In short, what is our strategy to prevent what you have now agreed 
with Congress is genocide in Darfur?
    If we fail to act--when the evidence of Sudan's crimes are clear 
for the world to see, and when we have the means to stop them--we 
renege on the promise of ``never again'' made after World War II, a 
promise repeated after the genocide in Rwanda.
    Were those words merely empty rhetoric, or will the world fulfill 
its promises when confronted, as we are right now, by another terrible 
challenge to human decency?
    I believe we should take strong measures, both domestically and 
internationally.
    In late July, Senator DeWine and I introduced legislation aimed at 
increasing the pressure on the government in Khartoum to bring a halt 
to the violence in Darfur.
    Senator Lugar subsequently introduced his own bill, which is 
similar in several respects, but takes a slightly different approach in 
others. I am pleased that we were able to introduce a joint bill 
today--a bill that we hope the entire Senate can support.
    I thank the chairman. I look forward to hearing from you, Mr. 
Secretary.

    The Chairman. Thank you very much, Senator Biden.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. And, Secretary 
Powell, thanks for being here. Mr. Chairman, at the outset, I'd 
like to have the trip report \1\ that Frank Wolf and I have 
filed included in the record, if it could be.
---------------------------------------------------------------------------
    \1\ The text of the report can be found on page 61. The full 
report, which includes color photos, can be accessed at: http://
www.house.gov/wolf
---------------------------------------------------------------------------
    The Chairman. It will be placed in the record.
    Senator Brownback. Thank you.
    Mr. Secretary, thank you, God bless you. We really 
appreciate you stepping up on a tough issue, like you always 
do, and taking a very careful consideration, setting the 
factual basis for it, making a determination, and then 
articulating it very clearly. And I think this is very 
important. Words don't always capture the day. The words are 
important. And this word, the word on genocide, is very 
important and will have ramifications--I believe, significant 
ramifications--around the world and in the government in 
Khartoum. So I really appreciate what you're doing, and the 
care with which you do it, as well, I think, is very important.
    I want to ask you--you've had a good discussion here, it 
seems like to me, on a number of tools that are available in 
your tool chest. Because I know when you consider an issue, 
administration considers an issue, when they take a stance, 
then you've got to figure out, OK, how are we going to get this 
done? It's not just that you issue the word, and, OK, we've 
said it, that's good enough. It's then, all right, how do we 
follow on through it? You're going to the U.N. now for a 
resolution, starting a process there for them to review the 
genocide. And if they make the genocide determination, as I 
understand it, then a series of issues and actions, required 
actions, kick in, where--which is--I think, were appropriate.
    And, by the way--and this is a sidebar--I think this is an 
enormously important time for the world, where we are stepping 
up while a genocide is occurring, and calling it as such, to 
protect the people there. Your own State Department has said, 
we've got--30,000 to 50,000 people have died, but the 
likelihood of 300,000 is clearly there, given the situation. 
But we're trying to stop this before it gets to 300,000. And I 
think this is a great time for the world to say, we're going to 
step into these things before all the people die that are 
there.
    As you look at the tools in your chest--you've described 
several of them already--but are there other leverage points 
that you can use, tools to get some of this forward? Will there 
be discussion on the sanctions, particularly oil, because 
that's the major issue for the Sudanese, that, OK, we will do 
this, and the U.N. will do this, and push this, unless Khartoum 
allows the international troops in? Because somehow we've got 
to get the security situation--you've identified it as a 
security humanitarian crisis--totally security-driven 
humanitarian crisis. It is. Can we use that, that tool, that 
threat of a sanction--but it's got to be a very real threat--to 
get the troops in on the ground? Can we personally, as the 
U.S., leverage more toward China, where they're the principal 
conduit through which the oil comes out of the country--not the 
only one, but the principal one; their companies, their 
market--can we leverage more our pressure on China to step up 
on Khartoum to get the international troops in?
    And Egypt, which I'm--I appreciate some of the words that 
they've said, but this is not enough, given the humanitarian 
crisis. And it is right there on their border, and it is right 
there on their door, and their relations with Khartoum are 
probably some of the better in the world. And they're a big 
ally of ours, and we work closely with the Egyptians. I think 
they are woefully, woefully inadequate in their actions, and 
even in their words, to date, that they have issued. Is there 
more in our tool chest that we can do toward the Egyptians to 
get the troops, the international troops, moved in to deal with 
the security situation?
    Secretary Powell. The issue of sanctions comes up 
frequently, and the one with the most bite and leverage to it, 
I think, would be oil. It would, of course, require concerted 
U.N. action, and the U.N. would have to do it in the form of a 
resolution so that it becomes binding in international law. 
There's nothing that can be done unilaterally on that.
    And, yes, I think we can do more, in talking to the 
Chinese, Pakistanis, the Egyptians, the leadership of the Arab 
League to put more pressure on Khartoum.
    I do think we will be able to persuade the Sudanese--and it 
won't take too much time, I hope--that it is in their interest 
to allow this monitoring force to be built up--this protection 
monitoring force to be built up as quickly as we can build it 
up. And that's going to be the focus of all of our efforts and 
energies in the days ahead. And I will be talking to both the 
Egyptian, as well as the Chinese, leadership about this.
    Senator Brownback. And Arab League leadership, you 
mentioned----
    Secretary Powell. Arab League, as well.
    Senator Brownback [continuing]. As well. Do you see other 
tools available to you that have not been discussed today to 
try to get those troops in on the ground in that western----
    Secretary Powell. The logistics problem is getting it done, 
getting the troops equipped so that they can perform the 
mission, making sure there's a concept, an operational concept, 
so that they know what they're going in to do, and then getting 
the actual contributors, not just, sort of, expressions of 
interest, we might be prepared to do something.' We'd get the 
nations of the African Union to make specific commitments in 
quantities, then put in place the command-and-control system. 
So it's really, sort of, the military logistics and command-
and-control issues that I think we have to focus on right now.
    The Sudanese don't want to be in the position that they 
find themselves in now with this kind of pressure. We were 
looking forward to a much more promising year, 2004, with 
respect to U.S./Sudanese relations. As you recall, Senator----
    Senator Brownback. We all were.
    Secretary Powell [continuing]. Brownback, I went there last 
fall and said, let's get this Naivasha deal done by the end of 
December. Well, they all said yes. A bit optimistic. It took 
another five or so months. But we got it.
    Senator Brownback. Got it done.
    Secretary Powell. And we were saying we're going to have a 
White House ceremony for this. We are going to get 8,000 or 
more peacekeepers to come in from throughout the United Nations 
to help you implement this accord. All sorts of economic 
benefits will flow from this accord. All of that is still 
there, waiting.
    So there is an incentive for the Sudanese Government to do 
the right thing now, if they'll only do it, because benefits 
will flow from the Naivasha Accord and from an East-West 
settlement, the end of the crisis in Darfur. It will be to the 
benefit of all Sudanese people, to the benefit of the Sudanese 
Government, as they try to come out of the isolation that they 
have been in, at least with respect to the United States and 
with respect to many of the nations in the world, especially 
within Europe. And to help them develop the resource that they 
have--oil--to benefit all of the people of Sudan. And that, of 
course, you'll recall, Senator Brownback, was one of the major 
sticking points in the negotiations between the North and the 
South as we worked on the Lake Naivasha Accord. But we solved 
it. We got an understanding of how that oil revenue would be 
distributed. So this is a country that has resources and 
assets, and they want to use them. And to use them properly, 
they need to be part of the international community and not a 
pariah of the international community.
    And so I think we've got to continue to put the pressure on 
them. And the No. 1 item we should be working on now is the AU 
force getting in.
    Senator Brownback. I want to thank you and really praise 
your work and the President's work and Jack Danforth's work. 
We've been around the Sudan issue quite awhile. Senator Frist, 
as have a number of people on the dais, Senator Corzine, 
Senator Feingold, and Senator Alexander. I mean, there's a real 
chorus of people. But you guys are the first ones to really 
lean in and put action to your words. You've leaned in, and 
you've fought for the peace agreement between North and South, 
got it done. We passed the Sudan Peace Act. You're using some 
of the tools available to that. And there are carrots and 
sticks with it. And there are a lot of carrots that are here. 
And then I was, as well, with you, hopeful we were going to 
finally resolve this longest-running civil war this past year, 
and then this has stepped up.
    I do, in conclusion, want to hope and urge that we will 
support, financially, the African Union effort, but also the 
Europeans, particularly, will step up with this. They should. 
They are in a position to do so, should get that done.
    And, finally, Mr. Chairman, I'd like to recognize, 
particularly, one writer that traveled with us, Emily Wax, with 
the Washington Post, doing extraordinary work. I think she 
should get a Pulitzer Prize for the work that she's done, 
because a lot of this has been moved forward because the press 
has really focused in, and people have put some of their lives 
on the line to really cover this story in its graphic depth. 
And it is a horrific story. It is a very troubling story. But 
they've been there, and I really hope they keep reporting and 
shining the light on it.
    Thanks, Mr. Secretary.
    Secretary Powell. Thank you, Senator. And thank you for 
your work on this.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement of Senator Sam Brownback

    Today Secretary Powell and the State Department reaffirmed the 
conclusion of the U.S. Congress that genocide is taking place in Sudan. 
It is now clear that the Bush administration and Congress officially 
recognize the situation in Sudan for what it is: the killing of tens of 
thousands of innocent people, simply because of their race. President 
Bush's personal leadership on this issue began with the naming of Jack 
Danforth as a Special Envoy to the Sudan in 2001.
    I applaud and thank Secretary Powell for taking such a strong and 
principled step. The United States cannot and should not resolve this 
crisis alone. The international community must step up. Given the 
overwhelming facts regarding the Khartoum regime, how long can the 
international community continue to turn a blind eye and say that they 
see no evil? How many more people will have to die before the 
international community takes action as soon as possible beyond just 
setting another deadline for better behavior?
    I visited the Darfur region of Sudan in late June and issued a 
report with recommendations for the international community to deal 
with the dire human rights situation there. Arab militias, known as the 
Janjaweed, and government forces continue their violent campaign 
against Darfur's Black African population. Reports indicate that some 
200,000 refugees have fled to Chad, and over 1 million have been 
displaced inside the region. Some reports estimate that the final death 
toll could reach 1 million if humanitarian organizations are unable to 
deliver aid. I, along with Rep. Frank Wolf, personally visited five 
refugee villages and saw hundreds of burned-out homes.
    I introduced Senate Concurrent Resolution 99 along with Senator Jon 
Corzine, which formally declared genocide in Sudan. The Senate passed 
the resolution in July. The House of Representatives passed similar 
legislation cosponsored by Rep. Donald Payne and Rep. Thomas Tancredo. 
I also introduced legislation, along with Senator Mike DeWine and 
Majority Leader Bill Frist, providing $95 million in emergency 
humanitarian aid to the Darfur region of the Sudan.

    The Chairman. Thank you very much, Senator Brownback, for 
your comments on Africa; likewise, for the well-deserved praise 
to the press for illuminating these issues.
    Senator Feingold.
    Senator Feingold. I, too, thank you, Chairman Lugar and 
Senator Biden, for holding this hearing today. And I especially 
thank Secretary Powell for being here, for all the time you've 
spent with us today, and for your intense engagement and 
efforts to stop the atrocities in Sudan.
    For months now, many of us have been speaking out about the 
crisis in Darfur. We've recited the numbers, the mounting death 
toll, the malnutrition rates, the refugee flows, the numbers of 
displaced. We've called attention to the scope and scale of the 
violence, the systematic rape of women and girls, the 
destruction of whole villages. We've pointed to the ample 
evidence to indicate that the janjaweed militia forces 
responsible for most of the atrocities work hand-in-glove with 
the Sudanese military and the Sudanese Government. We have 
passed a genocide resolution, and the Secretary has made it his 
business to be directly engaged on this issue, traveling to 
Darfur and weighing in directly with Sudanese officials.
    But what we haven't done, and what the administration 
hasn't done, is find a way to bring security to the terrorized 
people in Darfur. The Darfur catastrophe is not the result of a 
natural disaster; it is the result of a deliberate policy 
unleashed by the Government of Sudan on its own citizens. And 
so far, no one has found a way to make that government change 
course.
    There are immediate steps that can be taken, on which I 
notice we tend to all agree: getting the African Union all the 
support it needs to be as effective as possible, continuing to 
urgently scale up our humanitarian response and to improve 
humanitarian coordination. But the very best reports from AU 
monitors will not, in and of themselves, bring security to 
Darfur.
    I am deeply grateful for the AU efforts to date, but we 
must not make the mistake of expecting from the AU mission 
something that it has neither the mandate nor the manpower to 
deliver at this point. Likewise, the very best efforts of the 
humanitarian community cannot solve the security problem. To 
stop the violence, to create conditions of security, we need to 
bring effective leverage to bear on the Government of Sudan.
    First, with all due respect to the Secretary, we need 
someone in charge. The Secretary of State has quite a bit on 
his plate. We used to have a Presidential envoy for Sudan, but, 
when Senator Danforth took up his post as U.N. Ambassador, 
inexplicably, he was not replaced. Recently, our most senior 
official at our embassy in Khartoum was recalled to the United 
States. This is no way to manage a crisis of this magnitude.
    Once again, as I have for months, I strongly urge President 
Bush to appoint a senior envoy to focus exclusively on this 
crisis each and every day, to keep sustained pressure on 
Khartoum, and, importantly, to convince other key international 
actors to increase their engagement.
    And that leads to a second point. We need a dramatic 
strengthening of political will around the world. I wish that 
we did not find ourselves confronted with this task at a time 
when mistrust of the United States is at an all-time high, 
strengthening the hand of Sudanese officials who would like 
nothing more than to cast themselves, incredibly, as victims.
    Finally, we need to think about the future. What kind of 
relationship can we really have with a government that has 
repeatedly over the years unleashed this kind of violence and 
misery on its own people? What political accommodations can be 
made to acknowledge that there is not a monolithic North and a 
monolithic South, but, rather, many actors in Sudan--by no 
means all armed--that want a voice in their own government and 
a hand in shaping their own destiny? How can we balance a very 
real, very serious interest in a solid counterterrorism 
relationship with Sudan with our reaction to the kind of 
unacceptable atrocities we see in Darfur right now? And how 
will those responsible for these crimes be held accountable for 
their actions?
    One additional word before I ask a question. I certainly 
share the view that's been expressed by many that the AU effort 
in Darfur is admirable and is, in fact, indispensable. The AU 
is the only game in town right now. Likewise, I welcome the way 
in which West Africans have stepped up to try to stabilize 
Sierra Leone and Liberia. And South Africans are playing such 
an important role in Central Africa.
    But I worry a little bit about where the ``African 
solutions to African problems'' mantra sometimes takes us. 
Genocide is not a regional problem; it is a whole-world 
problem. When there are three million people killed, as they 
have been in Eastern Congo, that is not just an African 
problem. I doubt that we would think of it as a European 
problem if it happened in Europe. This is important. Sometimes 
this language suggests that stability in Africa doesn't really 
relate to American interests. I think that's a bit of a 
dangerous idea in this era of global transnational threats, 
including the threats of terrorism and international crime.
    And I say this knowing that I am speaking to somebody who 
has enormous commitment and depth of understanding of African 
issues, and we've worked together on many of these issues. But 
the concept of this as peculiarly African problem, or a problem 
where they, sort of, more or less, solve the problems 
themselves, with our help, is not the same way, it seems, that 
we sometimes react to similar events in other parts of the 
world.
    Having said that, I'd like to ask you, Mr. Secretary, in 
the draft resolution currently being circulated by the United 
States at the Security Council, what specific consequences will 
be triggered by the Government of Sudan's failure to improve 
the security situation in Darfur?
    Secretary Powell. There is no specific action, in the form 
of sanctions, if that's your context, Senator Feingold. It 
expresses its disappointment--the resolution expresses the U.N. 
Security Council's disappointment that more hasn't been done. 
And it tees up, from the previous resolution, the possibility 
of sanctions, to include the petroleum sector, if the Council 
is not satisfied with the forthcoming actions. And it speaks 
principally to the expansion of the AU force and asks for the 
Secretary General to form a group to go look into the question 
of genocide.
    But it deplores the recent violence that has taken place, 
and it essentially tees the ball up again, and tees it up in a 
better way, if we do not see improvement and there is a will 
within the Council, to impose sanctions. But there's no 
immediate sanctions that come out of this resolution.
    Senator Feingold. What good does it do to pass U.N. 
resolutions with deadlines when there are no actual 
consequences triggered by a failure to achieve----
    Secretary Powell. The Sudanese would say to you that they--
their understanding was that they had more time than just 30 
days, based on their understandings with the Secretary General 
of the Security Council. So what we're saying is that we are 
now measuring it, at the 30-day point. They are found wanting. 
There has been improvement in humanitarian support, there is a 
political dialog that's underway. The monitors have been 
deployed, and we have the possibility of many more monitors and 
protection forces being deployed. And express our 
dissatisfaction through this resolution on the security 
situation. And as the specific language of this draft 
resolution will say, Government of Sudan has failed fully to 
comply, and Sudanese Government will--hang on a minute--
declares the Council will take further action, including 
measures as provided for in Article 41, which is the measures 
article of the charter, including with regard to the petroleum 
sector and individuals. So it elevates the concern that the 
Council has with respect to what the Sudanese Government have 
been doing with respect to security, and sets in play, for 
Council consideration, that actions may be required affecting 
the petroleum sector and specific individuals. So it's a step 
forward from where we were 30 days ago, but it is not yet the 
pulling of a trigger.
    Senator Feingold. Let me just follow with a very quick 
followup. I mentioned in my statement the fact that I've urged 
President Bush to appoint a senior envoy to focus exclusively 
on this crisis each and every day to keep the pressure on 
Khartoum. Can we expect the administration to take a step like 
this soon?
    Secretary Powell. I have individuals who are doing nothing 
but following this every day, who have somebody permanently 
assigned to the negotiating team in Mbuzia, and former 
Principal Deputy Assistant Secretary Charlie Schneider is doing 
nothing but Darfur, Sudan, right now. We have not made a 
judgment as to whether a special envoy was necessary. Senator 
Danforth, Ambassador Danforth, did a terrific job related to 
the Lake Naivasha negotiations, and made several trips to the 
region. But, of course, there was a full team that was working, 
on a day-to-day basis, and we have such a full team now. And if 
it makes sense, at some point, to put somebody else into an 
envoy position, I would have no reservations about doing that 
if it seemed appropriate.
    Senator Feingold. Well, I admire the people you have 
working on it, but I think it made a real difference to have 
somebody the stature of Senator Danforth working on this issue, 
and I would urge that it is time for somebody of that stature 
to be in charge of this operation again. But I thank you, Mr. 
Secretary.
    Secretary Powell. Thank you, Senator.
    The Chairman. Thank you, Senator Feingold.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. Mr. Secretary, 
thank you for being here.
    On June 15, at Chairman Lugar's request and with the 
participation of a lot of the Senators who have already spoken, 
I chaired a hearing of the full committee on Sudan. And what we 
primarily heard from witnesses who had been there is a request 
for United States action. And the action, interestingly, that 
they specifically asked was not that we go there, but that we 
get the United Nations involved. That is what they thought, on 
June 15, would make the most difference.
    Within a couple of weeks, I think--maybe three--you were in 
the Sudan, and you had gotten the United Nations involved. And 
as--I want to join with the other Senators on both sides of the 
aisle this morning in saying that your willingness to move 
quickly on this has been an enormous help.
    You've had a lot of specific questions already asked. Let 
me ask you to look down the road a little bit with me and talk 
about security, and specifically about the African Union.
    I was just thinking, as I was listening, how we can quickly 
shift our priorities here. Four years ago, we didn't want many 
spies. Today, we wish we had a lot. Four years ago, there was a 
bipartisan reluctance to engage in nation-building. Today, we 
wish we were better prepared for nation-building, and we have 
opportunities for it, it seems, new ones every day. And 
everywhere we look, a condition precedent to nation-building is 
security, whether it's Afghanistan elections or whether it's 
Iraq or whether it's Liberia or whether it's in Sudan, so that 
Sudan can take the benefit of the North-South agreement that's 
been worked on for so long.
    Now, starting with the African Union, which we've talked 
about a lot today, as you reflect on your experience--both your 
military experience and then your experience now, as Secretary 
of State--and recognizing that suddenly we're now in a 
different sort of world, looking down the road 5 years, what 
should we be thinking about in this committee and what should 
we be doing differently to prepare--to help Africa prepare, and 
to help the world prepare, for the opportunity to secure 
conflicts so that there can be nation-building in places like 
Sudan? Starting with--well, start with Africa. Specifically, 
what can we be doing, and what should we be thinking about 
doing, over the next 5 years that we probably weren't thinking 
about doing 2 or 3 years ago?
    Secretary Powell. In a tactical sense, the building up of 
the indigenous forces beforehand, through the peace initiative 
that the President has put before the Congress, so that there 
are trained, qualified, ready, equipped troops that can go in 
and establish security when called upon to do so, either by 
invitation or because there's been a collapse of authority. And 
the more money we put into that, the better off I think we are. 
And I hope that we can get very, very robust funding for that 
kind of activity.
    Senator Alexander. What's the level of appropriation 
that's----
    Secretary Powell. I think the request right now--and I'll 
have to get it for the record--it's a hundred million, but, you 
know, it ought to be a lot more, and it shouldn't just be 
Africa. We can be doing the same thing in Latin America, we 
could do the same thing in Asia, just to have troops in 
different parts of the world that are trained, ready, and 
competent, and professional.
    At another level, though, the real guarantee for nation-
building and to provide security is for people to not have 
cause to rebel or to create instability. And programs such as 
the President's Millennium Challenge Account, we're investing 
in those countries that are making the right choices with 
respect to democracy, with respect to economic freedom, with 
respect to human rights, with respect to the rule of law. If 
you make solid investments in those kinds of countries and in 
those sorts of programs, you're removing the cause of 
instability. And that's why I believe the Millennium Challenge 
Account is such an important program.
    The first countries that we have identified for this are 
working hard to make sure that they get the right contract or 
compact with us. So many other countries that were not included 
in the first tranche are now coming to us saying, What do we 
have to do to get into this program?
    And so the real solution to this comes from alleviating 
poverty, doing something about disease, doing something about 
HIV/AIDS, doing something about those factors that create 
instability, and, you know, make the ground fertile for civil 
war, for rebellion, for disaffected young people, who are not 
being educated, who are not being taken care of, who see no 
future in the political system they're living under, to fight 
against that political system and to create this instability.
    So tactically, invest in peacekeeping forces. 
Strategically, do more with programs such as the Millennium 
Challenge Account. Give me a lot more funding for USAID 
programs. Give me a lot more funding for public diplomacy 
programs. Give me a lot more funding for exchange programs, so 
I can bring more and more people from countries around the 
world to the United States to be educated and learn so they can 
go back and help their societies. That's soft power that we 
talk about. The soft elements of power are as important as the 
hard elements of power.
    I've been involved in a number of these situations. I 
remember when we went into Panama in December 1989. I was so 
privileged last week to be at the inauguration of yet another 
freely elected President of Panama, and to sit there. And 14 
years ago, I was the one who was issuing the orders, on behalf 
of Secretary Cheney and President Bush, to invade the place and 
take out Manny Noriega. And 14 years later, we see a 
democratically elected President yet again.
    But when we went into Panama, it took us 3 days to deal 
with the military problem. And we started looking around, Well, 
how do we actually build this nation back up? And that didn't 
take 3 days; that took months and years to do it correctly.
    And so another thing we have done in the State Department, 
we've created now a new office under Mr. Carlos Pasqual, and it 
is an office that's going to be looking at potential places of 
instability around the world and start thinking now what we 
might have to do to nation-build in these countries if called 
upon to do so, so that we start to put in place the staff, the 
capacity, the resources, and the competence needed, on an 
interagency basis within our government, to handle these kinds 
of challenges as they come along.
    So strategically, the Millennium Challenge Account, USAID, 
HIV/AIDS, all those soft elements of power. Tactically, train 
units that can go in--indigenous units that can go in and 
provide security. And then, in between, start to create the 
infrastructure we need in the U.S. Government so that we're not 
constantly surprised by these demands when they come along.
    Senator Alexander. Thank you. I fully concur with your 
emphasis on the soft power. But I think the fact remains, 
parallel to that, which you concede, that we're awfully busy 
with security issues right now. And as we've gone down the row 
of Senators, there's no one, really, to send--to add to the 
protection of the monitors in the Sudan, except the African 
Union, at the moment. And I assume, from your answer, that if 
we were 5 years down the road, and if, between now and then, 
we've done a good job of helping the African Union expand its 
professionalism and train its available troops, or even in the 
new European countries where--in Georgia, for example, where 
the new President would like to have more United States aid to 
train a smaller, but more professional, level of troops that--
would you envision that--as these opportunities for nation-
building, which we'd be better prepared to do, come up, that 
there would be--it would be appropriate for there to be forces 
available from the African Union or even from these--the new 
European countries to help----
    Secretary Powell. Sure.
    Senator Alexander [continuing]. Provide the security that's 
conditioned to exercise----
    Secretary Powell. Absolutely. And a place like Cote 
d'Ivoire, there are French troops there--it's not, as the night 
follows day, they always have to be African troops. I think 
it's--these are regional and international problems. And what I 
find is, in my peacekeeping account, I'm going to need more and 
more funds in the years ahead. And I'm glad I'm going to need 
more and more funds, because it means there's peace to be kept, 
whether it's in the Congo or Cote d'Ivoire or Liberia or Haiti.
    Haiti's a good example. We went in with our French 
colleagues and our Canadian colleagues, rather quickly, and 
some other colleagues, and now the United States troops came 
out within a couple of months' time, and there's a 3,000-person 
peacekeeping force--Brazilians, Argentinians, Chileans, a 
number of others, Sri Lankans are coming, and even, to the 
surprise of many people, and the shock of some, the Chinese 
wish to send a small group of troops, police-type forces, in to 
help Haiti, as well.
    So it is not just a regional matter; it is an international 
matter. And I think that we have to scale up, and the U.N. has 
to scale up our competency, resources, and funds to conduct 
these kinds of activities in the future.
    Senator Alexander. Thank you.
    The Chairman. Thank you very much, Senator Alexander.
    Secretary Powell, as you know, your Department has been 
very helpful to this committee in our work, thinking about 
nation-building. And in our authorization bill, which may or 
may not see the light of day by the end of the Congress, there 
is, in fact, money, as well as about 300 people within the 
State Department as a starter. Defense Department officials 
will meet with us soon, but they're apparently already onboard.
    Secretary Powell. They are.
    The Chairman. And you're working with them.
    Secretary Powell. No, it's a very good effort. It's an 
interagency effort under Mr. Pasqual, and everybody's 
cooperating. We all know we have to do this right in the 
future.
    The Chairman. Tremendously important, and we look forward 
to working with you some more.
    Senator Boxer.
    Senator Boxer. Thank you so much.
    Mr. Secretary, I so appreciate your strong words that you 
used this morning, because I do think words matter. And I also 
think actions, of course, matter more. We have no Ambassador in 
Sudan, and I support that. We should not have an ambassador 
there. We don't have a charge, and now we don't have a special 
envoy. And so I wonder, as--I'm just going to make a 
statement--I probably have two or three little questions, if 
you could respond--do we have plans to have a special envoy 
there?
    I appreciate the fact that in the State Department document 
you call rape a ``weapon,'' and clearly it is being used as a 
weapon. And what I want to do today, since I agree with 
everybody who spoke--I mean, I just don't take issue with 
anything that was said here, Mr. Chairman--I want to try to put 
a human face on what is going on, and I take this straight out 
of Amnesty International. This brutal crackdown that started in 
March 2003, which now has been deemed by our Secretary of State 
to be a genocide--as Senator Brownback has said, more than 
50,000 killed, 395 villages destroyed, 1.4 million driven from 
their homes, all in a little more than a year. And women have 
been brutalized by the use of rape as a weapon of war. So let 
me talk about this, specific cases.
    One woman was 5 months pregnant when she was abducted by 
the jangaweed with eight other women during an attack on July 
24, 2003. Some of the girls abducted with her were as young as 
8 years old. She said, ``Five to six men would rape us, one 
after the other, for hours during 6 days, every night. My 
husband couldn't forgive me after this. He disowned me.''
    Another Darfuri reports, there was also another rape on a 
young single girl, age 17, ``M''--they disguise her name--``was 
raped by six men in front of her house, in front of her mother. 
M's brother, S, was then tied up and thrown into the fire.''
    Another case, a 30-year-old woman recounted the following 
to Amnesty delegates, quote, ``Some 15 women and girls who had 
not fled quickly enough were raped in different huts in the 
village. The jangaweed broke the limbs of some women and girls 
to prevent them from escaping. The jangaweed remained in the 
village for 6 or 7 days. After the rapes, the jangaweed looted 
the houses.''
    So, clearly, this is beyond our ability to imagine the way 
we would feel if we were watching one of our children in this 
situation.
    So we all agree that the world cannot stand by. Everyone is 
in agreement. So here's my question. Have you seen the 
Washington Post editorial today? I want to just read from it, 
and I'd like you to respond to it. ``Although the United States 
has been generous financially, it has not expended the 
diplomatic capital necessary to achieve a solution.''
    So I'd like you to respond to that. ``Earlier in the 
summer, Mr. Powell argued that the violence against Darfur 
civilians could be ended by Sudan's government, even though 
that same government had invented the policy of attacking 
villagers with helicopter gun ships, then sending in the 
jangaweed to burn their houses, kill and rape inhabitants, and 
poison wells. This mistaken belief conveniently absolved 
outsiders of the moral responsibility to provide peacekeepers. 
Sudan's government, however, showed no indignation or 
indication to stop the killings. It also lacked the means to 
re-bottle the jangaweed genie, even if it wanted to. Besides, 
there was no way that traumatized Darfuri villagers would 
return home in the absence of foreign peacekeepers, just as 
Kosovo's ethnic Albanians would never have returned home as 
long as the surrogates of Milosevic remained in control.
    ``Now, U.S. officials have drafted a U.N. Security Council 
resolution that calls on Sudan's government to accept an 
expanded force that would probably consist of 3,000 troops and 
a bit over a thousand police officers from the African Union. 
This is a good idea. But the problem with Mr. Powell's draft 
resolution is that Sudan's government has little incentive to 
pay attention to it.``
    So I'm hoping you will respond to that fact. What's the 
incentive for them to pay attention to it?
    ``In its current version, the resolution includes no 
deadline for Sudanese compliance.'' No deadline. ``Its vague 
threat of sanctions is undermined by the fact that the U.N. 
issued the same threat in July, but seems to have forgotten it. 
The U.S. must propose a tougher resolution that delivers on 
July's threat of sanctions, and threatens more if Sudan's 
government fails to accept the African Union force. This sort 
of resolution would not win easy acceptance from Sudan 
sympathizers on the Council, and Mr. Powell would have to work 
very hard to secure passage, but at least this approach might 
force Sudan to pay attention. The alternative--and they call it 
`the milk-toast resolution' that the State Department has put 
forward--creates the appearance of action without the 
substance.''
    So I'm sure you don't agree with this, I don't think, but I 
found it very compelling, and I wonder if you could respond to 
that, and also the issue of a special envoy.
    Secretary Powell. We have--Mr. Whitehead, who is on the 
ground acting as our representative in Khartoum--as you know, 
we do not have Ambassadorial-level representation, for reasons 
that are well known to you, Senator Boxer----
    Senator Boxer. Oh, I agree with it.
    Secretary Powell [continuing]. And, as I mentioned earlier, 
we have an individual permanently assigned to the peace 
discussions--political discussions taking place in Mbuzia. 
And----
    Senator Boxer. And who is that?
    Secretary Powell. His name is Mr. Hermond.
    Senator Boxer. I'm sorry?
    Secretary Powell. Hermond.
    Senator Boxer. What's his full name?
    Secretary Powell. I'll can get it for you. I don't have his 
full name in my----
    Senator Boxer. Well, we need a high-level person, everybody 
knows their name. But that's OK, let's--go ahead.
    Secretary Powell. And Charlie Schneider is managing it as 
his sole duty. He was the Principal Deputy Assistant in the 
African Bureau--been replaced so that he can devote all his 
time and attention to that. And the idea of a more senior 
individual is something we will take under consideration.
    Senator Boxer. Good.
    Secretary Powell. With respect to the Washington Post, they 
have had strong views on this for some time. The fact of the 
matter is, there is no peacekeeping force that is there. It's 
not a peacekeeping force that's suggested by the tone of the 
editorial, but a peace-making force, somebody to go in there 
and actually take control. And, I'm sorry, I don't see a source 
of such a force. So we are pushing for an expansion of the AU 
monitoring mission, and several thousand troops will make a 
difference, in my judgment.
    With respect to the resolution, I think it's a strong 
resolution. It declares that the Council will take further 
action, including measures as provided for in Article 41, 
including with regard to the petroleum sector. It's a direct 
threat to the Sudanese Government with respect to that which is 
of value to them--that is, the petroleum sector--and, as well, 
the resolution talks about action against individual members in 
the event of noncompliance of the previous resolution, or 
failure to cooperate, and requests that the Secretary General 
report in 30 days to the Council on the progress, or lack 
thereof--30 days from the date of this resolution. So there is 
that timeline in there.
    Can I guarantee or say to you that the Security Council 
will vote any particular sanction at the end of the next 30 
days, or not? No, I cannot answer that question for you.
    But this is a strong resolution. It is a resolution that I 
think will be debated. I think there are a lot of people who 
feel it is too strong. We will have a challenge getting full 
support for this resolution. And one of the things that we have 
to constantly make a judgment about on any resolution is, put 
forward a strong one, one that we believe is the right 
resolution that is appropriate to the challenge we're facing, 
and then argue it out with our Security Council colleagues to 
get approval for the resolution. And so I do disagree with the 
Washington Post when it says that the resolution is not a 
strong one.
    Senator Boxer. OK. I'd just conclude and just say this, 
that you haven't answered their issue--and maybe you can just 
do it in writing--that there's little incentive. And they don't 
call for more than a peacekeeping force. They think that's a 
great idea. They're just calling for more sanctions.
    Secretary Powell. We have applied--the United States has 
sanctions against Sudan now. If you look at what additional 
sanctions we can impose, they do not amount to much that we're 
not doing already. So what we're talking about is international 
sanctions. And what we have to make a judgment of is what the 
international community is prepared to do. And we have put some 
strong language in this operative paragraph of the resolution 
that we will be debating with our colleagues at the United 
Nations. We are trying to scale-up the number of monitors and 
protection forces for those monitors. And I think that is the 
right solution. And I don't know that I can say more with 
respect to the position of the editorial writers at the 
Washington Post.
    Senator Boxer. No, that's fine.
    Secretary Powell. Yes.
    The Chairman. Thank you, Senator Boxer.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. We all share the outrage at 
what's going on in Darfur, and you've expressed it quite 
clearly, calling it for what it is today: genocide. And for 
that very clear and unequivocal expression, I express my 
appreciation.
    I would note it's probably pretty easy to play Secretary of 
State in the editorial boardroom of the Washington Post, but I 
presume they don't have to figure out how to get a resolution 
passed, they don't have to worry about how to get a resolution 
enforced. And so I--I think it was Teddy Roosevelt once said, 
``It's not the critic who counts, but the person in the 
arena,'' and you are in the arena, and I appreciate that.
    I also appreciate the work of colleagues at the State 
Department, the work that Ambassador Danforth did on the 
resolution in the North-South conflict, and the U.S. leading 
the world today in responding to genocide.
    So I just want to say thank you. I want to applaud you for 
your personal intervention and for your efforts now to continue 
to work with the Security Council to get something done.
    I do have just one question. My colleague, Senator 
Alexander, kind of, talked about the neighborhood and the 
neighbor response. There's been little discussion today about 
Chad. I know we've talked about Egypt. But they've been 
directly affected by this. Can you talk a little bit about the 
problems that the Darfur crisis has created for them? And are 
they getting the support they need? How are they fitting into 
this?
    Secretary Powell. Yes, they have been given a serious 
problem. And I think our estimate is that there are perhaps 
200,000 Sudanese who are now in the camps on the Chadian side 
of the boarder being provided for by the United Nations 
agencies. And part of the money that has been made available to 
us is being used to assist them.
    Senator Coleman. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coleman.
    Several hours ago, Senator Sarbanes stood aside, and I'm 
prepared to recognize the Senator. Senator Nelson has come in 
subsequently, but--fair enough. Senator Nelson, please proceed.
    Senator Sarbanes. Go ahead.
    Senator Nelson. Thank you to my colleague.
    Mr. Secretary, what are the lessons learned from the 
Rwandan genocide, by us holding back, that we could apply those 
lessons learned here?
    Secretary Powell. That you have to get engaged early. I 
think we did. We made it a matter of international concern 
early on. We worked hard for the Naivasha Accord, which is 
really tied up in this whole situation. And we had success with 
that. We were able to arrange a cease-fire in early April, 
which was good at the time; but, unfortunately, it didn't bring 
a solution to the problem. We went from $94 million that we 
were planning to allocate to Sudan, and we've put in now up to 
close to $600 million for the fiscal year, so we responded in 
that way. We responded with our diplomatic efforts, our 
political efforts. Working with our friends in the Security 
Council, we put forward a resolution. And we put forward that 
resolution--about 6 weeks or so ago, people were not sure we 
could get a resolution passed. It took a lot of hard work on 
the part of our diplomats in New York and our diplomats in 
capitals around the Security Council world. We got it. We have 
succeeded in persuading the Government of Sudan to give greater 
access to humanitarian workers. The number of humanitarian 
workers has increased by multiples.
    So the complaints or criticism that nothing has happened 
and none of this has served any purpose are not entirely placed 
well, because the aid is flowing. It's a matter of retailing it 
out and getting it to the people who need it.
    Where we have not seen success is on the security side. And 
what Rwanda tells us is, that is what we have to do. This is 
not quite a Rwanda. We have this jangaweed force out there that 
is essentially committing these acts, as we now call them, of 
genocide. And they do it in a very horrible way. It is not 
quite as horrible as what happened in Rwanda, with the actual 
lining up of people and slaughtering of people en masse. But 
the lessons are: get involved early. The AU is getting 
involved. The AU has people on the ground. They want to put 
more people on the ground.
    So I think we have learned from Rwanda. And I'll tell you 
the one who is deeply concerned about this, and has spoken 
about this, is Secretary General Kofi Annan. And that's why he 
has put a special representative on the ground, and why he has 
been so seized with this matter and has been personally 
involved. I talk to him about it several times a week. And he 
has been to Sudan himself.
    Senator Nelson. Why do we think that the Chinese are not 
going to support us on the resolution?
    Secretary Powell. I don't know that they won't support us 
on the resolution. They found it necessary to abstain on the 
previous resolution, and they have some interests there that 
suggests, to me, anyway, they thought it best for them to 
abstain. And I hope that as they have now seen another month 
pass, more than a month, and the security situation not 
improve, I hope this may cause them to reflect on their 
previous judgment and perhaps join in support of this 
resolution. And so I would not yet say they are not going to 
support us. I don't know what they will do yet.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    First, I'd just observe, as long as they don't oppose it, 
the resolution would carry, presumably.
    Secretary Powell. That's right. As long as they don't veto.
    Senator Sarbanes. Yes. Mr. Secretary, we appreciate your 
appearance this morning and the emphasis you've placed on this 
issue. I want to put just a few rather specific questions to 
you.
    First of all, are we in a position to assure that the 
logistical support that any African Union force would require 
will be available to them?
    Secretary Powell. I don't know what the demand is yet. I 
don't know what they'll ask for. But we are standing ready, 
leaning forward, with funds available, to support them. Will I 
have enough funds? I don't know yet. But we're prepared to 
support them, principally through contractor support. We know 
how to hire aircraft. We know how to engage commercial 
companies that can provide housing, medicine, food, water, the 
other necessities of keeping a force in the field.
    Senator Sarbanes. Well, I think it's very important for us 
to be in a position to provide the support if the African Union 
can produce a substantially stepped-up force, so that the AU 
doesn't then flounder or falter over the lack of the logistical 
support which it requires. It seems to me that's a 
responsibility that we should be in a position to deliver on.
    Secretary Powell. We are. But, even more significantly, 
we've got to make sure that our other colleagues, and 
especially the European Union, is prepared to make its 
contribution to that effort, as well.
    Senator Sarbanes. That leads right into my next question, 
which is this:
    I drew from your testimony this morning that in your view a 
number of other countries are not doing what they could to 
help, including some in the immediate area. Why not?
    Secretary Powell. A variety of reasons. Some feel a certain 
sympathy for the Sudanese Government in general and don't want 
to apply too much pressure against that government. Some have 
made financial commitments, but they have not yet been able to 
meet those commitments as a result of their own budget process 
and parliamentary requirements. Those are the ones we are 
really putting pressure on--the United Nations, especially, is 
putting pressure on them. As, I think, one of the Secretary 
General's representatives noted not too long ago, only 40 to 45 
percent, roughly, of the commitments have been fulfilled. 
Humanitarian organizations that have said they would do more, 
we've got to get them to do that, more that they talked about, 
in terms of people, in terms of resources on the ground. So 
we're going down each commitment that has been made to make 
sure that it is fulfilled.
    Senator Sarbanes. It seems to me that we ought to exert 
every pressure that we can to assure this participation. Some 
of it, as you've indicated, was already promised or committed, 
as I understand it, but not yet delivered. Others have 
refrained, but I hope could be drawn into providing support for 
the U.N. effort now underway. I think that's----
    Secretary Powell. Absolutely, Senator. It's part of our 
effort.
    Senator Sarbanes. Now, I'm also interested in the 
conditions in the refugee camps, which people report are 
deplorable--there's apparently danger of widespread disease, 
and so forth and so on. Under whose jurisdiction are these 
refugee camps?
    Secretary Powell. For the most part, they are under the 
overall supervision and jurisdiction of United Nations 
agencies, but a lot of NGOs are involved who actually operate 
the camps or----
    Senator Sarbanes. If that's the case, why should we have a 
potential humanitarian problem, with the conditions in the 
refugee camps that will, in fact, result in significant deaths? 
If the jurisdiction is in the hands of those who are trying to 
alleviate the crisis, then why should the conditions in the 
camps be such that they constitute a real threat, human threat?
    Secretary Powell. Because the camps are crowded. Not all of 
the assistance is there yet. Not all of the necessary 
humanitarian or NGO workers are there to fully take care of 
these populations. And, in some instances, malnutrition and 
illness already affecting these individuals may cause death in 
the months to come.
    But this is what the United Nations and its agencies and 
the NGOs have been doing for the last couple of months, and 
that is rapidly scaling up their capacity to deal with the 
populations in these camps. And then, of course, there are new 
populations being found that are being brought into camps so 
that they can be taken care of.
    Senator Sarbanes. What can we do to--quickly--to strengthen 
that capacity and so that the very camps in which they're 
seeking refuge no longer pose a significant.
    Secretary Powell. A great deal is being done. We're putting 
a lot of money into it. Andrew Natsios, the Director of the 
USAID, is on his way over there now, again, to make an 
assessment and see what else we might be doing. Jan Egeland, of 
the United Nations, who's in charge of this for the United 
Nations, is deeply involved in soliciting additional 
contributions and finding additional workers to go in; Jan 
Pronk, who is the Secretary General's personal representative 
on the ground--everybody is working on this to increase the 
capacity.
    What we did succeed in doing was opening the pipeline in 
order to put capacity into it. We got rid of most of the 
restrictions that the Sudanese had on provision of humanitarian 
aid. No more problems with travel documents and the like, and 
visas and the like, and customs problems and the like.
    Senator Sarbanes. That was an extremely important 
breakthrough, and that's why I asked at the outset, Under whose 
jurisdiction are the camps and what's the situation there? 
Having accomplished that, though, it seems to me this 
absolutely has to be made an immediate priority. Both the 
United States and those in the international community who have 
been willing to focus on this issue must now put on a full-
court press, as we would say, to change the conditions in the 
camps.
    Secretary Powell. That's what they're doing, and that's 
what we are doing, Senator, trying to help them to the best of 
our ability. But they, you know, are still camps, people living 
under plastic shelter, people who have to go to a central point 
several times a day to get their ration, and putting in place 
clean water and sewage facilities. But that capacity and that 
infrastructure is being built up as rapidly as we can.
    Can we move more rapidly? I hope so. And that's what we're 
working with the U.N. on.
    Senator Sarbanes. That's--I guess that's what I'm pushing 
you----
    Secretary Powell. Yes.
    Senator Sarbanes [continuing]. Pushing you and others to 
do, because I think it's a sad state of affairs, if, in fact, 
the people come into the camps seeking refuge, but the camps 
themselves end up posing a major problem to their life and 
their health.
    Secretary Powell. If they get to the camps, and if it's a 
camp that we do have access to--the U.N. and the other agencies 
do have access to, you can generally stabilize that population 
so that they are being fed.
    Senator Sarbanes. Well, what----
    Secretary Powell. And there is----
    Senator Sarbanes [continuing]. Percent of the camps do you 
not have access to?
    Secretary Powell. I can't answer that off the top of my 
head. There is something like 140 to 150 camps.
    Senator Sarbanes. Right.
    Secretary Powell. And I would--I'd rather give this for the 
record, but the U.N. would say--and it's really a U.N. judgment 
to make--that they have good control and access to, I would 
guess--the last number that was given to me by the U.N. is that 
they're confident that they can reach out to one million of the 
roughly 1.2 million people who are in this condition. And there 
is another 200,000 that are in Chad who are also under care. 
But there are probably many more people out in the countryside 
that we do not have access to.
    When we talk about this two-million population, it's out of 
a population of Darfur of roughly six million. So it's about a 
third of the population that is displaced in camps in Sudan or 
across the border in Chad. How much of the remaining population 
is in distress or trying to get to camps, I don't have a good 
answer----
    Senator Sarbanes. I understand that problem, and the forces 
that are trying to do good are not in a position to control 
that situation----
    Secretary Powell. Right.
    Senator Sarbanes [continuing]. At least not as yet. But in 
those----
    Secretary Powell. In the camps----
    Senator Sarbanes [continuing]. Where we do control the 
situation, it seems to me imperative that it be made absolutely 
the first priority. And I would include in that the camps in 
Chad, as well.
    Secretary Powell. Yes.
    Senator Sarbanes. Because, presumably, the Government of 
Chad is trying to be helpful in this situation.
    Secretary Powell. Yes, Senator.
    Senator Sarbanes. You know.
    Secretary Powell. Yes. I wouldn't disagree with you in the 
slightest.
    Senator Sarbanes. OK.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Secretary Powell, let me just ask this. Some have observed 
that when the United States sent some troops to Liberia, 
despite the fact that many were offshore, it was nonetheless a 
presence that showed the gravity of the situation and our 
interest. Is there any parallel application that you can 
envision in Sudan--perhaps a scenario in which we are not a 
part of the African Union force, but, on the other hand, by the 
presence of our military we are assisting the situation and 
increasing pressure and emphasis on the solution?
    Secretary Powell. Possibly, Senator. We don't have that 
kind of standoff capability, obviously, in a place like Sudan, 
as we did in Liberia. We do have some military personnel who 
are on the ground--U.S. military personnel--working with the 
African Union monitoring team under General Okonkwo. And I 
think that has given some assurance to the monitoring team. 
And, frankly, it's been a channel by which we know what's going 
on. And we can help buildup the monitoring team and the 
protection force. Then we have, of course, USAID personnel on 
the ground. And I expect that, as we get into the buildup of 
the AU force, you're liable to see additional U.S. personnel, 
both civilian and military, on the ground helping with that. I 
don't see, however, a force going in that would be, sort of, a 
force over the horizon of the kind that we had in Liberia.
    The Chairman. But the presence of all these U.S. officials, 
either military or civilian, are known to the Sudanese 
Government presumably.
    Secretary Powell. Yes.
    The Chairman. What would be the effect, in your judgment, 
if we had an international oil sanction, if that was the will 
of the Security Council? As you pointed out, we've sanctioned 
in many different directions and we are hard-placed as to how 
to go further. But the oil sanction is a different thing. What 
is the effect of that upon the Sudanese?
    Secretary Powell. I can't predict whether the--such a 
sanction, which would cut the revenues of the government--if it 
was an effective sanction--which would cut the revenues of the 
government significantly. I can't tell whether that would 
produce the kind of change that we would like to see or whether 
it would have other kinds of consequences on that government 
that we might not like to see. It's an unknown.
    The Chairman. Is one of the reasons why Europeans are 
reticent to do this their worry about a possible spike in oil 
prices or some effect upon the world oil market in the midst of 
all the other effects that are occurring now? Admittedly, 
you've said that perhaps they're less inclined now to block 
that.
    Secretary Powell. Yes. It is a judgment call. And, as I 
said earlier in my testimony, what we want to do is to get 
results. And we believe that in that part of Sudan, this large 
expanse of territory, the best approach to this is--
notwithstanding the Washington Post editorial--the best 
approach to this is to put the pressure on the Sudanese 
Government to solve this problem in Sudan--with the help of AU 
monitoring and protection forces, with the presence of the 
international community, politically and diplomatically, with 
money available to provide the wherewithal that these people 
need to survive--and the Sudanese Government has responded in 
some instances, and it has not responded in others. And we've 
got to keep the pressure up and calibrate the pressure in a way 
that does not kick in the law of unintended consequences and we 
find ourselves with an even more difficult situation.
    The Chairman. Finally, you've mentioned soft power, and 
that Mr. Natsios, and USAID, are headed in that direction. You 
specifically mentioned today the Millennium Challenge Account 
which might apply to the Sudan in the long term. From my 
observances in travels, I would say that in Georgia, one of the 
countries selected, for MCC, this has had a tremendous impact 
upon their government's confidence as a young democracy as they 
think through the requests they are going to make. 
Correspondingly, in Albania, they hope that they are going to 
be on the MCC list very soon.
    Secretary Powell. Yes.
    The Chairman. I would just report that the construction of 
democracy there, in Albania and Georgia, is proceeding 
remarkably, as well as is training in their military, including 
the requirement of English language training among their 
officers, and other subjects that might not have been 
anticipated.
    Secretary Powell. Yes.
    The Chairman. The Millennium Challenge is limited because 
of the criteria, in a way. Corruption is a big factor, quite 
apart from the efficacy of how their systems work. How rapidly 
can the MCA be applied in Africa?
    Sudan has all these problems. But at some point, Sudan may 
come out as a possible candidate. Now, if so, how many other 
candidates are there in Africa that could also benefit as we're 
shoring up the entirety of the continent, as we've talked about 
today?
    Secretary Powell. There are a number of other countries 
we're looking at. And, as you know, we've made the first 
awards.
    The Chairman. Yes.
    Secretary Powell. Meaning, we're prepared to enter into a 
compact discussion with you to see what you're going to do with 
this money if we give to you. Then we have another category 
we're calling ``threshold countries,'' where, we think you're 
close, and we'll give you a little seed money to get closer, 
to, sort of, you know, prove to us you're worthy of it. And 
there are a number of other countries who are not near. And 
they have been, sort of, pounding on the door, saying, What do 
we have to do? It's not hard. Democracy, you've got to end 
corruption, and the rule of law has to be in place, and you've 
got to show you've made a commitment to market economics. 
Otherwise, we're not going to waste money on you. We're not 
going to just put money down in a rathole that has no impact. 
And you've got to make sure that you are prepared to invest 
this money in your infrastructure. And we want to know what 
your people think.
    What's been surprising in the Millennium Challenge Account 
is, a number of countries--because we said we had to have some 
sense of what your people wanted--have, for the first time in 
their history, gone out and asked people to say, What do you 
want us to do with this money? And they have opened up Internet 
and chat rooms, and the people are coming and saying, This is 
what we want the money spent on, in some places where you 
wouldn't have thought they had the Internet or chat rooms to 
begin with, but they do, and they're learning how to do it.
    So the Millennium Challenge Account has already shown 
leverage beyond just the first few countries to get the awards.
    The Chairman. Well, it's a tremendously exciting idea, and 
I hope that, as you are able, you'll report to the committee 
the candidates in the threshold category; and, likewise, even 
anecdotal experience, such as you've suggested, of countries 
that are tapping on the door, as you pointed out. Because that 
will be helpful as members of our committee and others travel 
to these countries, to encourage them to move ahead.
    Secretary Powell. And I hope the Congress recognizes that 
they've got to keep the funds in the program, and not start 
whittling away because we're not, you know, quite sure what 
you're going do with it all, because it's that promise of 
significant funding that will be available to those countries 
who are doing the right thing that makes this program work.
    The Chairman. And your reports to us will help boost our 
resolve; and, likewise, our testimony to our colleagues.
    Secretary Powell. I hope so, thank you, Senator.
    The Chairman. I thank you very much, Mr. Secretary. We've 
had 14 members ask questions of you today; other members, 
perhaps discouraged, left; but there was very good 
participation, which shows the interest that we have. 
Obviously, your interest is really paramount on this topic. 
We're grateful to you for your testimony.
    Secretary Powell. Thank you, Mr. Chairman.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 12:19 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


                              TRIP REPORT

            Senator Sam Brownback and Congressman Frank Wolf

                Darfur, Western Sudan--June 27-29, 2004

    It was just 10 years ago--in 1994--when the world stood by and 
watched as more than 800,000 ethnic Tutsis were systematically murdered 
in Rwanda by rival extremist Hutus.
    When the killing finally ended after 100 days--and the horrific 
images of what had taken place were broadcast around the globe--world 
leaders acknowledged it was genocide, apologized for failing to 
intervene, and vowed ``never again.''
    That pledge from the international community is being put to the 
test today in western Sudan, where an estimated 30,000 black African 
Muslims have been murdered and more than 1 million have been driven 
from their tribal lands and forced to live in one of 129 refugee camps 
scattered across the western provinces of Darfur. More than 160,000 
have fled across the border to Chad.
    The United Nations Convention on the Prevention and Punishment of 
the Crime of Genocide describes genocide as acts committed with intent 
to destroy, in whole or in part, national, ethnic, racial or religious 
groups, such as:

  <bullet> Killing members of the group;

  <bullet> Causing serious bodily or mental harm to members of the 
        group;

  <bullet> Deliberately inflicting on the group conditions of life 
        calculated to bring about physical destruction in whole or in 
        part;

  <bullet> Imposing measures intended to prevent births within the 
        group, or

  <bullet> Forcibly transferring children of the group to another 
        group.

    Having recently spent three days and two nights (June 27-29) in 
Darfur, we believe what is happening there may very well meet this 
test.
    During our trip we visited five refugee camps: Abu Shouk; Tawilah; 
Krinding; Sisi, and Mornay--all sprawling tent cities jam-packed with 
thousands of displaced families and fast becoming breeding grounds for 
disease and sickness.
    We drove past dozens of pillaged villages and walked through what 
was left of four that were burned to the ground.
    We heard countless stories about rape, murder and plunder.
    We even watched the barbarous men who are carrying out these 
attacks--Arab militiamen called Janjaweed--sitting astride camels and 
horses just a short distance from where young and old have sought what 
they had hoped would be a safe harbor.
    Janjaweed is roughly translated in Arabic as ``wild men on horses 
with G-3 guns.'' Ruthless, brutal killers, the Janjaweed have 
instigated a reign of terror on Darfur--a region about the size of 
Texas--for more than a year. They kill men. They rape women. They 
abduct children. They torch villages. They dump human corpses and 
animal carcasses in wells to contaminate the water. Their mandate is 
essentially doing whatever necessary to force the black African Muslims 
from their land to never return.
    It is clearly the intent of Janjaweed to purge the region of 
darker-skinned Africans, in particular members of the Fur, Zaghawa, and 
Massaleit tribes.

                           JANJAWEED MANDATE

    From where does this mandate come? The Government of Sudan disavows 
supporting the Janjaweed. Some officials in Khartoum even deny the 
existence of a humanitarian crisis in the region. Yet the facts prove 
otherwise. We witnessed the destruction. We heard horrific accounts of 
violence and intimidation. We talked to rape victims. We saw the scars 
on men who had been shot. We watched mothers cradle their sick and 
dying babies, hoping against all odds that their children would 
survive. We saw armed Janjaweed waiting to prey on innocent victims 
along the perimeter of refugee camps.
    To hear the vivid, heartrending descriptions of the attacks it is 
clear the Janjaweed have the support--and the approval--of the 
Government of Sudan to operate with impunity. The same stories were 
repeated at every camp we visited. The raids would happen early in the 
morning. First comes the low rumble of a Soviet-made Antonov plane--
flown by Sudanese pilots--to bomb the village. Next come helicopter 
gun-ships--again, flown by Sudanese pilots--to strafe the village with 
the huge machine guns mounted on each side. Sometimes the helicopters 
would land and unload supplies for the Janjaweed. They would then be 
reloaded with booty confiscated from a village. One man told us he saw 
cows being loaded onto one helicopter. Moments later, the Janjaweed, 
some clad in military uniforms, would come galloping in on horseback 
and camels to finish the job by killing, raping, stealing and 
plundering.
    Walking through the burned out villages we could tell the people 
living there had little or no time to react. They left everything they 
owned--lanterns, cookware, water jugs, pottery, plows--and ran for 
their lives. There was not even time to stop and bury their dead.
    The Janjaweed made certain that there would be nothing left for the 
villagers to come home to. Huts were torched. Donkeys, goats and cows 
were stolen, slaughtered or dumped into wells to poison the water. 
Grain containers were destroyed. In one village we saw where the 
Janjaweed even burned the mosque.
    Only the lucky ones--mostly women and children--made it out alive.

                            ETHNIC CLEANSING

    What is happening in Darfur is rooted in ethnic cleansing. Religion 
has nothing to do with what has unfolded over the last year.
    No black African is safe in Darfur. Security is non-existent. The 
Janjaweed are everywhere. Outside the camps. Inside the camps. They 
walk freely through the marketplace in Geneina, a town in far western 
Oarfur, with guns slung over their shoulders. One shopkeeper, we were 
told, was shot in the head by a Janjaweed because he wasn't willing to 
lower the price of a watermelon.
    Government of Sudan military and security forces also are 
omnipresent. At each of the places we visited we were either trailed or 
escorted by a mixture of military regulars, police forces and 
government ``minders.'' There have been reports that the government has 
been folding the Janjaweed into its regular forces as a way to disguise 
and protect them. At two of the camps we visited, we were told the 
government had inserted spies to report on what was said or to threaten 
those who talked. We were told the ``minders'' repeatedly scolded 
refugees and told them in Arabic to shut up. Yet, even with these 
threats, refugees in every camp we visited were eager to tell their 
stories.
    It should be understood that the Janjaweed are not ``taking'' the 
land from the black Muslim farmers they are terrorizing. The Janjaweed, 
whose historical roots are part of the region's roving nomads who have 
battled with the African farmers for generations, are employing a 
government-supported scorched earth policy to drive them out of the 
region--and perhaps to extinction. It also was clear that only villages 
inhabited by black Africans were being targeted. Arab villages sitting 
just next to African ones miles from the nearest towns have been left 
unscathed.
    On our first day in the region, we met with local Government of 
Sudan officials in the town of El Fasher, a two-hour plane ride west of 
Khartoum. They blame the crisis in the region on two black African 
rebel groups--the Sudan Liberation Army (SLA) and the Justice and 
Equality Movement (JEM)--who started an uprising in February 2003 over 
what they regarded as unjust treatment by the government in their 
struggle over land and resources with Arab countrymen. The rebel forces 
actually held El Fasher for a short period last year. A cease-fire was 
agreed to in April 2004 between the rebel groups and the Government of 
Sudan, but the Janjaweed have continued to carry out attacks with the 
support and approval of Khartoum.
    While local government officials in El Fasher were adamant in 
saying there is no connection between the Government of Sudan and the 
Janjaweed, whom they called ``armed bandits,'' the militiamen we saw 
did not look like skilled pilots who could fly planes or helicopters.
    We also were told the Janjaweed are well armed and well supplied. 
If they are traditional nomads, how are they getting modern automatic 
weapons, and, more importantly, from whom? They also are said to have 
satellite phones, an astonishing fact considering most of the people in 
the far western provinces of Darfur have probably never even seen or 
walked on a paved road.
    The impunity under which the Janjaweed operate was most telling as 
we approached the airport in Geneina on our last day in the region for 
our flight back to Khartoum. In plain sight was an encampment of 
Janjaweed within shouting distance of a contingent of Government of 
Sudan regulars. No more than 200 yards separated the two groups. 
Sitting on the tarmac were two helicopter gunships and a Soviet-made 
Antonov plane.

                          HUMANITARIAN CRISIS

    The situation in Darfur is being described as the worst 
humanitarian crisis in the world today. We agree. But sadly, and with a 
great sense of urgency, things are only going to worsen. Some say that 
even under the best of circumstances, as many as 300,000 Darfuris 
forced from their homes are expected to die from malnutrition and 
diarrhea or diseases such as malaria and cholera in the coming months. 
Measles have already spread through Abu Shouk, a large refugee camp 
outside El Fasher.
    According to some predictions, the death toll could reach as high 
as 1 million by next year. The Darfuri farmers have missed another 
planting season and will now be dependent on grain and other food 
stuffs provided by the international community for at least another 
year. The impending rainy season presents its own set of problems, 
making roads impassable for food deliveries and the likelihood of 
disease dramatically increasing with the heavy rains.
    The potential for a crisis of catastrophic proportions is very 
real, especially since none of the villagers we talked to at the 
refugee camps believed they will be able to go back to their homes 
anytime soon. Having been brutally terrorized by the Janjaweed and 
fearing for their lives, they do not believe Government of Sudan 
officials who say it is safe to return to their villages. We heard 
stories of some families who went back to their villages only to return 
to the camps a week later for fear of being attacked again.
    The attacks have traumatized thousands of young children. In an 
effort to cope with what they have endured, programs have been 
established in the camps to help the young boys and girls deal with 
their psychological scars. Part of the program encourages them to draw 
pictures of what they have seen. The crayon drawings are chilling. Huts 
on fire, red flames shooting through the roof. Planes and helicopters 
flying overhead shooting bullets. Dead bodies. Depictions, perhaps, of 
their mother or father.
    We also saw a group of children who had made clay figures of men on 
camels and horseback attacking villages. There is no way to measure the 
impact of these atrocities on the thousands of children living in these 
camps. Their lives are forever scarred.

                      DIFFICULT LIFE IN IDP CAMPS

    Abu Shouk was the first of five IDP (Internally Displaced People) 
camps we visited. More than 40,000 people live in this sprawling tent 
city, created in April after El Fasher was overrun with homeless 
families. Methodically laid out with water stations, a health clinic, a 
supplemental feeding station and crude latrines, it is being hailed as 
a ``model'' by humanitarian relief workers in the region.
    However, aid workers at Abu Shouk are deeply distressed. They 
observe that malnutrition and child mortality rates at this ``model'' 
camp have reached alarming levels. They fear what may be happening at 
the other camps, especially in the more remote areas of Darfur that 
have not been reached by humanitarian groups.
    Life in the camps is difficult. Crude shelters made from straw and 
sticks and covered with plastic sheeting stretch as far as the eye can 
see. Families arriving at the camps--almost all after walking for days 
in the hot sun from their now abandon villages--are given only a tarp, 
a water jug, cookware and a small amount of grain.
    The sanitary conditions are wretched. The sandy conditions make 
building latrines difficult. At Mornay, the largest of the IDP camps in 
Darfur with more than 70,000 inhabitants, it was hard not to step in 
either human or animal feces as we walked. In a few weeks, when the 
heavy rains begin, excrement will flow across the entire camp. 
Mortality from diarrhea, which we were told represents one-third of the 
deaths in the camps, will only increase.
    To their credit, all the non-governmental organizations (NGOs) that 
have been allowed to operate in Darfur have done--and continue to do--a 
tremendous job under extremely trying circumstances. The Government of 
Sudan has repeatedly thrown up roadblocks to bringing in aid. It has 
denied or slowed visa processing for relief workers. It has kept aid 
vehicles locked up in customs for weeks at a time. It has blocked 
relief groups from bringing in radios. It has limited access to certain 
regions of the country. All this has made getting medicine, food and 
other humanitarian supplies, like plastic sheeting and water jugs, an 
uphill battle. While the Government of Sudan plays its games, people 
are dying as needed aid sits on tarmacs.
    As we approached the Mornay camp on the last day of our three-day 
trip, we were stopped by Government of Sudan soldiers and security 
officers. They followed us throughout the camp, watching with whom we 
talked. Amazingly, their presence did not inhibit the refugees from 
recanting the horrors from which they escaped and, for some--mostly 
women--continue to endure.
    The men said while they feel somewhat secure inside the confines of 
the camps, they dare not venture outside for fear of being shot or 
killed by the Janjaweed. They showed us scars on their arms and legs of 
the gunshot wounds they received while escaping from their villages. 
They are despondent over the fact that they are unable to provide food 
for their families because they cannot farm their fields. They 
expressed utter sadness and outrage about their wives and daughters who 
venture outside the borders of the camp to collect firewood and straw, 
knowing the fate that awaits them at the hands of the Janjaweed. Life 
and death decisions are made every day: send the men out and risk death 
or send the women out and risk rape.
    Rape is clearly another weapon being used by the Janjaweed. Rapes, 
we were told, happen almost daily to the women who venture outside the 
confines of the camps in search of firewood and straw. They leave very 
early in the morning, hoping to evade their tormentors before they 
awake. With the camps swelling in size and nearby resources dwindling, 
they often walk several miles. The farther the women go from the camp, 
the greater the risk of being attacked by the Janjaweed. As we 
approached Mornay, we saw a number of Janjaweed resting with their 
camels and horses along the perimeter of the camp, easily within 
walking distance.
    We heard the horrific story of four young girls--two of whom were 
sisters--who had been raped just days before we arrived. They had left 
the camp to collect straw to feed the family's donkey when they were 
attacked. They said their attackers told them they were slaves and that 
their skin was too dark. As they were being raped, they said the 
Janjaweed told them they were hoping to make more lighter-skinned 
babies.
    One of the four women assaulted, too shy to tell her story in front 
of men, privately told a female journalist traveling with us that if 
anyone were to find out she had been raped, she would never be able to 
marry.
    We were told that some of the rape victims were being branded on 
their back and arms by the Janjaweed, permanently labeling the women. 
We heard the chilling account of the rape of a 9-year-old girl.
    We also received a letter during our trip from a group of women who 
were raped. To protect them from further attacks, we purposely do not 
mention where they are from or list their names. The translation is 
heartbreaking:

        Messrs. Members of the U.S. Congress

        Peace and the mercy and the blessings of God be upon you.

          We thank you for your help and for standing by the weak of 
        the world, wherever they are found. We welcome you to the [. . 
        .] region, which was devastated by the Janjaweed, or what is 
        referred to as the government ``horse- and camel-men,'' on 
        Friday [. . . 2004], when they caused havoc by killing and 
        burning and committing plunder and rape. This was carried out 
        with the help of the government, which used the [. . .] region 
        as an airport and supplied the Janjaweed with munitions and 
        supplies. So we, the raped woman of the [. . .] region, would 
        like to explain to you what has happened and God is our best 
        witness.
          We are forty-four raped women. As a result of that savagery, 
        some of us became pregnant, some have aborted, some took out 
        their wombs and some are still receiving medical treatment. 
        Hereunder, we list the names of the raped women and state that 
        we have high hopes in you and the international community to 
        stand by us and not to forsake us to this tyrannical, brutal 
        and racist regime, which wants to eliminate us racially, 
        bearing in mind that 90 percent of our sisters at [. . .] are 
        widows.
          [Above] are the names of some of the women raped in the 
        region. Some of these individuals are now at [. . .], some are 
        at Tawiah and some are at Abu Shouk camps. Everything we said 
        is the absolute truth. These girls were raped in front of our 
        fathers and husbands.
          We hope that you and the international community will 
        continue to preserve the balance of the peoples and nations.

          Thank you.

        From: The raped women at [. . .].

    These rape victims have nowhere to turn. Even if they report the 
attacks to the police, they know nothing will happen. The police, the 
military and the Janjaweed all appear to be acting in coordination.

                       DIRE SITUATION IS MAN-MADE

    The situation in Darfur is dire, and from what we could see, it is 
entirely man-made. These people who had managed to survive even the 
severest droughts and famines during the course of their long history 
are now in mortal danger of being wiped out simply because of the 
darker shade of their skin color.
    The first step in resolving this crisis is disarming the Janjaweed. 
It must be done swiftly and universally. If not, the Janjaweed will 
just bury their weapons in the sand, wait for the pressure from the 
international community to lift, then reinitiate their reign of terror.
    A system of justice overseen by outside monitors must also be 
implemented. The heinous, murderous acts carried out by the Janjaweed 
cannot go unpunished. War crimes and crimes against humanity clearly 
have been--and continue to be--committed. Those responsible must be 
brought to justice.
    Over the course of three days, we saw the worst of man's inhumanity 
to man, but we also saw the best of what it means to be human: mothers 
waiting patiently for hours in the hot sun so that they could try to 
save their babies; NGO aid workers and volunteer doctors feeding and 
caring for the sick and the dying, and the courage and bravery of men, 
women and children eager to talk to us so that we would know their 
story.
    The world made a promise in 1994 to never again allow the 
systematic destruction of a people or race. ``Never again''--words 
said, too, after the Holocaust. In Darfur, the international community 
has a chance to stop history from repeating itself. It also has a 
chance to end this nightmare for those who have found a way to survive. 
If the international community fails to act, the next cycle of this 
crisis will begin. The destiny facing the people of Darfur will be 
death from hunger or disease.
    When will the death of innocent men, women and children--who want 
nothing more in this world than to be left alone to farm their land and 
provide for their families--be too much for the conscience of the 
international community to bear?
    We sat with the victims. We heard their mind-numbing stories. We 
saw their tears. Now the world has seen the pictures and heard the 
stories. We cannot say we did not know when history judges the year 
2004 in Darfur.

                            RECOMMENDATIONS

The Government of Sudan
  <bullet> The Government of Sudan should immediately implement key 
        provisions of the April 8 cease-fire agreement, including: the 
        cessation of attacks against civilians; disarming the 
        Janjaweed, and removing all barriers to the admittance of 
        international aid into Darfur. There should be a strict 
        timetable holding the Government of Sudan accountable for 
        implementing these provisions.

  <bullet> The Government of Sudan should renew a dialogue with the 
        Sudan Liberation Army and the Justice and Equality Movement to 
        discuss the political, economic and social roots of the crisis.
The African Union
  <bullet> Additional cease-fire observers should be deployed and 
        violations of the cease-fire reported immediately. The current 
        number of 270 observers is inadequate to monitor the activity 
        of an area the size of Texas.
The United States
  <bullet> The United States should publicly identify those responsible 
        for the atrocities occurring in Darfur, including officials and 
        other individuals of the Government of Sudan, as well as 
        Janjaweed militia commanders, and impose targeted sanctions 
        that include travel bans and the freezing of assets.

  <bullet> The president should instruct the U.S. representative to the 
        United Nations to seek an official investigation and hold 
        accountable officials of the Government of Sudan and 
        government-supported militia groups responsible for the 
        atrocities in Darfur.
The United Nations
  <bullet> The United Nations should pass a strong Security Council 
        resolution condemning the Government of Sudan. It should call 
        for: an immediate end to the attacks; the immediate disarming 
        of the Janjaweed; the immediate protection of civilians by 
        beginning a review of the security of refugees in Darfur; the 
        determination of the feasibility of sending in U.N. protection 
        forces; an immediate review of bringing legal action against 
        those responsible for the policies of ethnic cleansing, crimes 
        against humanity and war crimes in Darfur, and the imposition 
        of targeted sanctions that include travel bans and the freezing 
        of assets.

  <bullet> The United Nations should immediately deploy human rights 
        monitors to Darfur.

  <bullet> The protection of civilians and access to humanitarian aid 
        should be a primary concern; the Security Council must be 
        prepared to establish a no fly zone if the cease-fire continues 
        to be violated.

  <bullet> The United Nations together with other organizations should 
        continue to coordinate a relief strategy for getting aid into 
        those regions of Darfur that have yet to receive humanitarian 
        assistance. Alternative routes and means of delivering aid 
        should be considered if the Government of Sudan continues to 
        impede deliveries.

  <bullet> The United Nations should take immediate steps to seek the 
        removal of Sudan from the United Nations Commission on Human 
        Rights.

  <bullet> The United Nations should set a deadline for the Government 
        of Sudan to comply with all obligations under the cease-fire 
        and prepare contingency plans in the event those deadlines are 
        not met.

                              *    *    *

    We would like to thank everyone involved in organizing, 
coordinating and implementing our trip. Representatives from the State 
Department, USAID and the NGOs both in Washington and Sudan deserve 
special thanks.
    We would also like to thank Sean Woo, general counsel to Senator 
Brownback (R-KS), and Dan Scandling, chief of staff to Representative 
Wolf (R-VA), for accompanying us on the trip. They played a critical 
role in writing this report and took all the photographs. In addition, 
we would like to thank Janet Shaffron, legislative director, and 
Samantha Stockman, foreign affairs legislative assistant, to 
Represenatitve Wolf and Brian Hart, communications director, and Josh 
Carter, legislative aide, of Senator Brownback, for editing the report. 
Colin Samples, an intern in Representative Wolf's office, did the 
design and layout.
    We also want to extend our thanks to Secretary of State Colin 
Powell and U.N. Secretary General Kofi Annan for visiting the region. 
Their personal involvement in working to resolve this crisis is 
critically important.
                              ----------                              


       Responses to Additional Questions Submitted for the Record


Responses of Hon. Colin L. Powell to Additional Quetions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

    Question 1. What precisely is the mandate of the current African 
Union Mission in Sudan?

    Answer. The mandate for the mission is defined by the Ceasefire 
Agreement signed in N'djamena on April 8, 2004 and restated by the 
agreement signed between the parties in Addis Ababa on May 28, 2004. 
The mandate includes the following actions:
  <bullet> Planning, verifying and ensuring the implementation of the 
        rules and provisions of the ceasefire;
  <bullet> Defining the routes for the movement of forces in order to 
        reduce the risks of incidents; the administrative movements 
        shall be notified to the Ceasefire Commission (CFC);
  <bullet> Requesting appropriate assistance with demining operations;
  <bullet> Receiving, verifying, analyzing and judging complaints 
        related to possible violations of the ceasefire;
  <bullet> Developing adequate measures to guard against such incidents 
        in the future;
  <bullet> Determining clearly the sites occupied by the combatants of 
        the armed opposition and verifying the neutralization of the 
        armed militias.

    Question 2. Why doesn't the draft resolution on Sudan currently 
before the Security Council grant a mandate to the African Union to 
protect civilians?

    Answer. Neither UNSC resolution 1556 nor the current draft 
resolution grant a mandate to the African Union Mission in Darfur. The 
African Union Mission in Darfur is an independent, regional operation, 
and the mission's mandate was established by the African Union itself, 
after consultations with the Government of Sudan. Both UNSC resolution 
1556 and the current draft resolution strongly welcome and support the 
African Union's endeavor; resolution 1564 underscored the Council's 
support for an expanded and augmented force. The African Union has 
always made clear that it believes it has the mandate to intervene to 
protect civilians in imminent danger. The United States, along with 
other partners, is currently working with the African Union to 
encourage as rapid as possible deployment of an expanded mission. We 
have made clear to the AU and the Government of Sudan our strong belief 
that a more robust mission is necessary to protect civilians in Darfur. 
We urge the Government of Sudan to cooperate fully with an expanded 
mission to ensure a secure and stable environment, including the safety 
and security of civilians and humanitarian workers.

    Question 3. Please describe in detail the African Union (AU) plan 
for expansion in Sudan. Do you believe the plan as conceived provides 
for a credible effective force capable of providing safety and security 
for the war effected population of Darfur?

    Answer. The African Union has not yet provided details for 
expansion of the mission. They are working on a plan and expect to 
release it to the donor community by the end of September.

    Question 4. Has the AU definitively agreed to move forward with an 
expanded mission? If so, when will the mission begin to deploy and how 
long before all the members of the expanded force are on the ground in 
a best case scenario?

    Answer. The AU has agreed to increase the size of the current 
mission. We will not know the deployment speed until the AU announces 
its plans for generating and deploying forces and assembles a logistics 
support effort. The U.S. will continue to press for as rapid a 
deployment as possible.

    Question 5. What exactly will an expanded AU mission cost? If there 
are no final figures available please give current estimates of what 
such a mission will cost. How much does Congress need to be prepared to 
pay during the next fiscal year?

    Answer. The United Nations conducted an assessment for the African 
Union on what an expanded African Union (AU) Mission might look like 
and cost. Based on a mission with 4,200 personnel, the UN estimates 
costs of approximately $228 million for stand-up, deployment, and 
operation of this expanded AU mission for twelve-months. The State 
Department has identified $20.5 million in FY 2004 funds for initial 
support of this expanded AU mission. As soon as the AU finalizes its 
operational plans and budget, we will meet with the AU and other donors 
to determine a support strategy and consult with Congress on meeting 
additional needs that this expanded mission might have.

    Question 6. Will finding the necessary African troops to serve in 
Darfur be a challenge given the number of troops that African nations 
currently have deployed in other peacekeeping missions in Africa and 
elsewhere?

    Answer. Both Nigeria and Rwanda have offered to send additional 
troops and Tanzania has indicated willingness as well. While this 
deployment will stretch the AU's pool of peacekeepers, the AU is 
committed to the mission and has indicated that they will find the 
necessary forces.

    Question 7. Will the AU send an expanded force to Sudan regardless 
of whether or not Khartoum accepts a mandate that entails allowing the 
monitoring force to undertake actions to protect civilians?

    Answer. The African Union is planning to expand the current African 
Union ceasefire commission in Darfur, currently made up of 
approximately 130 monitoring personnel and staff and a 310-troop 
Nigerian and Rwanda protection force, regardless of Khartoum's 
acceptance of a civilian protection role. In a September 9 letter to 
the President of the United Nations Security Council, Sudanese UN 
Permanent Representative Erwa stated that the Government of Sudan had 
``officially requested the AU to increase its monitoring presence in 
Darfur.''

    Question 8. What is your evaluation of the quality of the 10,000 
police sent to Darfur as referenced in the Secretary General Annan's 
September 2 report to the Security Council? Is it true that the police 
force is comprised of Jangaweed put in police uniforms?

    Answer. It is unclear what level of training the newly deployed 
police have. The Government of Sudan has told us that they deployed 
6000 police to Darfur who do not have a connection with Darfur or any 
of the tribes there. We can confirm that the number of police has 
definitely increased, and that internally displaced persons (IDPs) are 
generally feeling safer to venture outside of the camps, although they 
limit their movements to one to two kilometers from the camps. 
Regardless of these minor improvements, IDPs remain deeply distrustful 
of the police. Allegations of theft and sexual harassment committed by 
police in and around certain IDP camps are routinely made and confirmed 
by NGO workers. IDPs also claim that Janjaweed are being recruited into 
the police and the Government of Sudan aligned forces called the 
Popular Defense Forces (PDF); their level of confidence in police sent 
to Darfur from other areas appears to be very low as well. Without the 
trust of the people who they have been sent to protect, the ability of 
the police to fulfill their duty is very limited.
    In her report on the situation in Darfur, United Nations Commission 
in Human Rights Special Rapporteur, Ms. Asma Jahangir, said that many 
of the armed Arab militias have by now been integrated into the regular 
armed or the Popular Defense Forces and that there is a link between 
some of the militia groups and government forces, as some of the 
militia leaders have been integrated into the Sudanese armed forces and 
given official military ranks.

    Question 9. Will the expanded AU force have a police component? 
Have any members of the international community outside the AU offered 
to help with policing in Darfur? If so, who?

    Answer. We do not know yet if the expanded mission will include a 
policing component.

                                 ______
                                 

   Responses of Hon. Colin L. Powell to Additional Questions for the 
            Record Submitted by Senator Russell D. Feingold

    Question 1. What kind of domestic political risks does Nigerian 
President Obasanjo run if he pressures the Sudanese Government, which 
has proved so willing to ignore the fact that the victims in Darfur are 
Muslims and to characterize international concern as part of some 
Western-led campaign against Islam?

    Answer. President Obasanjo has played a key role in leading African 
Union efforts to address the Darfur crisis. He has not faced 
significant domestic criticism for his roll and the Nigerian media has 
not focused serious attention on ongoing talks in Abuja or the 
deployment of Nigerian personnel for force protection in Darfur. The 
American Embassy in Abuja reported that they have not seen disparaging 
comments or reactions from religious groups, nongovernmental 
organizations (NGOs), or political parties that often level serious 
criticism at President Obasanjo.

    Question 2. Does the AU monitoring force include female monitors 
who are trained to work with the large number of rape victims they are 
likely to encounter?

    Answer. No, the monitors do not include any women. We have strongly 
encouraged the AU to include women monitors and will continue to press 
for their inclusion in the expanded mission.

    Question 3. Some reports indicate that the JEM is linked to the 
most hard-line, extremist elements in Khartoum. Is the JEM likely to 
play a spoiler role in any attempts at negotiating a peace and a just 
political solution? What can be done to decrease their chances of 
success in this spoiler role?

    Answer. The Movement for Justice and Equality (JEM) is believed to 
have links to the Popular Congress Party of former Sudanese Prime 
Minister Hassan Turabi. These links have not been confirmed. Thus far 
in the negotiations that resulted in the April 8, 2004 humanitarian 
ceasefire agreement in N'djamena, Chad, and the Darfur peace talks 
sponsored by the African Union (AU) in Abuja, Nigeria, JEM and the 
Sudan Liberation Army/Movement (SLA/M) have presented a common front to 
the Government of Sudan. We will have a better opportunity to access 
JEM's policy objectives and negotiating style as the Abuja talks take 
up political ssues in the next round. The Darfur political equation is, 
ultimately, much broader than the two armed movements, and JEM, as well 
as the SLA, must carefully focus on achieving just, realistic, and 
durable political solutions if it inspires to play a responsible role 
in the future of Darfur and the Sudan.

    Question 4. Last month the President signed the Northern Uganda 
Crisis Response Act, a very modest bill which, among other things, 
calls for reporting on the relationship between officials in the 
Government of Sudan and the Lord's Resistance Army that has terrorized 
the people of Northern Uganda for nearly two decades. Has the Sudanese 
government pro-actively worked to cut off the LRA's support within 
Sudan, and to round up LRA leaders who find safe haven there? What has 
the U.S. Government done to impress the importance of this issue upon 
Sudanese officials?

    Answer. Over the past three years, the Government of Sudan has 
distanced itself from the Lord's Resistance Army (LRA). Although the 
withdrawal of support and sanction from the LRA is due in large measure 
to improvement in relations with Uganda and progress in the north/south 
Sudanese political process stemming from the 2002 Machakos Declaration, 
American diplomacy has also played an essential role in motivating 
Khartoum to discontinue its support. U.S. officials have pressed senior 
Sudanese leaders at every opportunity to take decisive steps to end the 
LRA scourge.
    In 2004, the GOS renewed an agreement with Uganda to permit the 
Ugandan Peoples Defense Force to pursue LRA forces in Sudan, and 
broadened its authorization to include the use of armed aircraft. 
Reports that some local Sudanese officials still provide limited 
logistical support to LRA elements have become fewer, and the lack of 
arms, food, and other supplies are increasingly apparent. The GOS has 
not, however, taken steps to arrest or detain LRA leaders or to free 
the thousands of children the LRA has abducted and forced to serve in 
its ranks. GOS control is uneven in the areas along the border with 
Uganda where the LRA operates, and does not generally extend much 
beyond the larger towns.

                                 ______
                                 

  Response of Hon. Colin L. Powell to an Additional Question for the 
                Record Submitted by Senator Jon Corzine

    Question. The UN has estimated that a 4,200 person AU force for 
Darfur will cost $228 million. Your administration recently identified 
$20.5 million for such a force, although not in new funds. Do you 
expect to make a request for supplemental funding to support an 
expanded AU mission? When would such a request be made, and for how 
much?

    Answer. We are presently evaluating the UN costs estimate. Without 
a firm estimate from the African Union of what this augmented force 
might cost and information about other possible donor contributions, it 
is difficult to estimate the amount of funds we will need. We look 
forward to consulting closely with Congress on meeting additional needs 
that this expanded mission might have.

                                 <all>

</pre></body></html>
